<html>
<title> - THE HEALTH EFFECTS OF CELL PHONE USE</title>
<body><pre>[Senate Hearing 111-348]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-348

                  THE HEALTH EFFECTS OF CELL PHONE USE

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                   SEPTEMBER 14, 2009--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
54-470 PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          RICHARD C. SHELBY, Alabama
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
JACK REED, Rhode Island
MARK PRYOR, Arkansas
ARLEN SPECTER, Pennsylvania
                           Professional Staff

                              Ellen Murray
                              Erik Fatemi
                              Mark Laisch
                            Adrienne Hallett
                             Lisa Bernhardt
                       Bettilou Taylor (Minority)
                        Dale Cabaniss (Minority)
                      Sara Love Swaney (Minority)

                         Administrative Support

                              Teri Curtin
                         Jeff Kratz (Minority)










                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Tom Harkin..........................     1
Statement of John Bucher, Ph.D., Associate Director, National 
  Toxicology Program, National Institutes of Health, Research 
  Triangle Park, North Carolina..................................     3
    Prepared Statement of........................................     5
Statement of Dariusz Leszczynski, Ph.D., D.Sc., Research 
  Professor, Radiation and Nuclear Safety Authority, and Adjunct 
  Professor, University of Helsinki, Helsinki, Finland...........    17
    Prepared Statement of........................................    18
Statement of Siegal Sadetzki, M.D., Director, Cancer and 
  Radiation Epidemiology Unit, Gertner Institute, Chaim Sheba 
  Medical Center, Tel-Hashomer, Israel...........................    19
    Prepared Statement of........................................    21
Statement of Linda Erdreich, Ph.D., Senior Managing Scientist, 
  Exponent Health Sciences, Center for Epidemiology, 
  Biostatistics, and Computational Biology, New York, New York...    25
    Prepared Statement of........................................    27
Statement of Devra Lee Davis, Ph.D., MPH, Professor, Department 
  of Epidemiology, Graduate School of Public Health, University 
  of Pittsburgh, Pittsburgh, Pennsylvania........................    29
    Prepared Statement of........................................    31
Statement of Olga V. Naidenko, Ph.D., Senior Scientist, 
  Environmental Working Group, Washington, DC....................    40
    Prepared Statement of........................................    41
Prepared Statement of Robert N. Hoover, MD, ScD, Director, 
  Epidemiology and Biostatistics Program, National Cancer 
  Institute, National Institutes of Health, Department of Health 
  and Human Services.............................................    55
Additional Committee Questions...................................    57
Questions Submitted by Senator Richard C. Shelby.................    57

 
                  THE HEALTH EFFECTS OF CELL PHONE USE

                              ----------                              


                       MONDAY, SEPTEMBER 14, 2009

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:05 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Pryor, and Specter.


                opening statement of senator tom harkin


    Senator Harkin. The Appropriations Subcommittee on Labor, 
Health, Education, and Related Agencies will now come to order.
    There are an estimated 270 million cell phone users in the 
United States and about 4 billion worldwide. I would venture to 
guess that almost everyone in this room uses a cell phone on a 
regular basis, and most of us don't give a second thought that 
it could harm us in any way. However, a growing number of 
experts think there is cause for concern. The amount of 
radiation emitted by cell phones is small, billions of times, 
I'm told, less than an X-ray. But some researchers believe that 
over the course of many years even this low level of radiation 
could cause cancers of the brain and central nervous system, as 
well as a range of other harmful effects.
    Indeed, some international studies have suggested that 
people who use cell phones for more than 10 years are more 
likely to get tumors on the side of the head where they usually 
hold their phone. Other studies, meanwhile, have found no 
correlation at all.
    So it is not the intention of this subcommittee to create 
undue alarm. But one thing that we'll want to discuss today is 
whether we need more National Institutes of Health (NIH) 
research in this area and how that research should be 
conducted. Our expert witnesses will also discuss whether there 
are precautions we should be taking now to reduce our exposure 
to cell phone radiation in case these fears turn out to be well 
founded.
    I'm reminded of this Nation's experience with cigarettes. 
Decades passed between the first warnings about smoking tobacco 
and the final definitive conclusion that cigarettes cause lung 
cancer. If more people had heeded those early warnings or if we 
could have established the link between tobacco and cancer more 
quickly, many lives would have been saved.
    We don't know yet whether cell phone radiation poses a 
similar danger. I hope today's hearing will begin to address 
that question.
    Before we turn to our first panel, I would yield to Senator 
Specter, who I would state for the record requested this 
hearing. It was Senator Specter who came to me and got my 
attention on this and suggested that we should indeed have a 
hearing on it. The more I looked at it, the more I think 
Senator Specter was absolutely right.
    Senator Specter.
    Senator Specter. I had to call Senator Harkin on his cell 
phone to get him. I was able to get through.
    I begin by thanking my distinguished colleague for 
scheduling this hearing. The subject was brought to my 
attention by a distinguished doctor who has written extensively 
on cancer, Dr. David Servan-Schreiber from the University of 
Pittsburgh Medical Center. He wrote a book on cancer which I 
found to be very illuminating. I've had a couple of bouts with 
Hodgkin's and was fascinated to hear Dr. Servan-Schreiber's 
views about sugar and white flour feeding into cancer. If 
you've had chemotherapy a couple of times, you look at any 
conceivable source to minimize the risks.
    When he told me about a conference which is being held, 
which is under way today on the Senate premises, it seemed--
well, he requested the hearing, as did Dr. Devra Lee Davis, a 
professor from the Department of Graduate School of Public 
Health at the University of Pittsburgh, that this would be a 
good day.
    You have, Mr. Chairman, outlined the issues I think 
succinctly. I think it is worth in addition noting that there 
is a $24 million study under way, which hasn't gotten too far, 
but is in process, and I think that you are correct that there 
ought to be a look to see what else needs to be done.
    I noted a couple of comments, one from the National Cancer 
Institute (NCI), which said, quote: ``More research is needed 
to determine what effects, if any, low level radiofrequency 
has.'' Well, the question is an open one according to that. The 
World Health Organization (WHO) said, quote: ``There are gaps 
in knowledge that have been identified for further research to 
better assess health risks.''
    I think it is worth noting that Finland, Israel, and France 
have taken some action in issuing guidelines for the use of 
cell phones. So it is something which is worth taking a look 
at, not in an inflammatory or an excited way or with any stark 
statements, but say it's a serious question and a serious 
question ought to get a serious analysis. No better place to do 
it than this subcommittee.
    So I thank you for convening the hearing. I thank our 
distinguished witnesses for coming.
    Senator Harkin. Thank you, Senator Specter. For the last 20 
years we've been working together I can honestly say that 
Senator Specter has always been sort of on the cutting edge of 
looking at research and asking the tough questions: Should we 
be doing more research in one area, another area? Especially in 
the area of cancer, I don't think anyone's been more forthright 
and had strength of purpose for all these years than Senator 
Specter in pushing the frontiers on cancer research.
    Senator Specter. Senator Harkin and I have not only asked 
the tough questions; we've provided some big answers, like his 
efforts and mine have had a part, however small, in increasing 
the NIH budget from $12 billion to $30 billion over a decade, 
and in the stimulus package our efforts adding $10 billion 
more, which has re-awakened a whole research, interest in 
research scientists, with 15,000 grants we're funding at NIH 
with level funding, which then resulted in across the board 
cuts, and inflation having taken $5.2 billion out of the $40 
billion.
    So we have done more than provide questions.
    Senator Harkin. We've pulled together, all right. It was 
pretty good, thank you.
    Thank you, Senator Specter.
    We'll turn to our first panel, and I will say for this 
panel and also to all the witnesses, your statements will be 
made a part of the record in their entirety. I would hope that 
you might sum them up in, oh, let's see--I didn't put pencil to 
paper to figure out our time here, but let's just say 7 or 8 
minutes for you to sum it up. We won't have a strict gavel on 
that, but just try to keep it at 7 minutes or so, your 
testimony.
    Our first witness is Dr. John Bucher, Associate Director of 
the National Toxicology Program (NTP), a cooperative effort 
between the National Institute of Environmental Health Sciences 
(NIEHS), the CDCP, and the FDA to coordinate toxicological 
testing programs in the Department of Health and Human 
Services. Dr. Bucher received a master's degree in biochemistry 
from the University of North Carolina and a Ph.D. in 
pharmacology from the University of Iowa.
STATEMENT OF JOHN BUCHER, Ph.D., ASSOCIATE DIRECTOR, 
            NATIONAL TOXICOLOGY PROGRAM, NATIONAL 
            INSTITUTES OF HEALTH, RESEARCH TRIANGLE 
            PARK, NORTH CAROLINA
    Senator Harkin. Dr. Bucher, welcome to the subcommittee and 
please proceed.
    Dr. Bucher. Thank you. Mr. Chairman and distinguished 
members of the subcommittee, I am pleased to appear to discuss 
research supported by the NIH, NIEHS, and NTP on exposure to 
radiofrequency (RF) radiation from the use of cellular 
telephones.
    I am John Bucher, Associate Director of the National 
Toxicology Program. Cellular telephones use RF energy or 
radiation for mobile communication. Wireless communication 
devices are used by more than 270 million Americans. With so 
many users, this could translate into a significant public 
health problem should their use even slightly increase the risk 
of adverse health effects.
    While the weight of current evidence has not conclusively 
linked cell phone use with any health problems, we and other 
scientific organizations believe better data are needed to 
establish any potential risks to humans from the low-level RF 
radiation exposures associated with their use.
    The Food and Drug Administration (FDA) nominated cell phone 
RF radiation emissions to the NTP for toxicology and 
carcinogenicity testing. The nomination was based on the 
following concerns: There is widespread human exposure; current 
exposure guidelines are based on protection from acute injury 
from thermal effects; little is known about potential health 
effects of long-term exposure; and sufficient data from human 
studies to clearly answer these questions may not be available 
for many years.
    The NTP is working to provide information that will help 
clarify any potential health hazards from exposure to cell 
phone radiation. We're in the initial stages of conducting 
toxicology and carcinogenicity studies in laboratory animals 
using specially designed chambers to provide exposures that 
simulate those of cell phone users in the United States. The 
rats and mice will be exposed to RF energy from the two 
technologies, CDMA and GSM, currently used, at 2 frequencies, 
900 and 1,900 megahertz.
    Because of the complexity of these studies, we are working 
with experts from the National Institute of Standards and 
Technology (NIST). NIST scientists have developed a system that 
provides uniform exposures to RF radiation to unrestrained 
rodents in the frequency bands used in mobile communications. 
This design allows for exposures for up to 20 hours per day, in 
contrast to the most comprehensive rodent cancer studies 
carried out to date in Europe using restrained animals, where 
exposures were only to 2 hours per day.
    This system consists of 21 chambers assembled in 
Switzerland and installed in IIT Research Institute 
laboratories in Chicago. The chambers are essentially shielded 
rooms with a transmitting antenna radiating RF fields and 
rotating stirrers to generate statistically uniform fields.
    The NTP is conducting studies in three phases: pilot 
studies to establish field strengths that do not excessively 
raise body temperature; subchronic toxicology studies where 
animals are exposed to various sub-thermal field strengths for 
1 month; and chronic toxicology and carcinogenicity studies 
exposing animals for 24 months. The studies include both sexes 
of rats and mice and pregnant female rats, allowing us to 
examine potential health effects from exposures starting in 
gestation and continuing through old age.
    The pilot studies are nearly complete. Subchronic studies 
will begin early next year and the chronic toxicology and 
carcinogenicity studies will start in late 2010, finish in 
2012, with peer review and reporting in the 2013-2014 
timeframe.
    In addition to the NTP study, research is under way in 
academic institutions supported through the NIH extramural 
grants program. The research portfolio of the NCI includes 
several grants examining possible associations between cell 
phone use and cancer. Internationally, an NCI-funded grant is 
exploring possible links between exposure to electromagnetic 
frequencies and tumors of the brain and central nervous system. 
In the United States, researchers at five academic centers are 
undertaking the first efforts to examine environmental and 
genetic risk factors for meningioma, a tumor that forms in 
tissues surrounding the brain and spinal cord. Cell phone use 
is a major environmental risk factor being considered in this 
study. These grants are expected to conclude in 2011, with 
findings available shortly thereafter.
    The NIEHS is using American Recovery and Reinvestment Act 
funding to support researchers at UCLA studying whether 
exposure to cell phones in childhood can affect the central 
nervous system. The cohort for this study includes more than 
100,000 Danish children. The research team will study whether 
cell phone exposures are related to behavioral and 
developmental problems, as well as outcomes such as seizures, 
migraines, and sleep disturbances.


                           prepared statement


    Thank you for the opportunity to talk about these important 
studies. The studies I've described represent a significant 
commitment to determining whether any risks to public health 
are posed by the use of mobile communication devices. I'll be 
more than happy to answer any questions you may have.
    [The statement follows:]
                  Prepared Statement of John R. Bucher
    Mr. Chairman and distinguished members of the subcommittee: I am 
pleased to appear before you today to present testimony on research 
supported by the National Institutes of Health's National Institute of 
Environmental Health Sciences (NIH/NIEHS), through the National 
Toxicology Program (NTP), on exposure to radiofrequency (RF) energy 
from the use of cellular telephones. My name is John Bucher; I am the 
associate director of the NTP.
    Personal (cellular) telecommunications is a rapidly evolving 
technology that uses RF energy or radiation for mobile communication. 
Currently, wireless communication devices are used by more than 270 
million Americans, or greater than 85 percent of the U.S. population. 
With so many users, this could translate into a potentially significant 
public health problem should the use of these devices even slightly 
increase the risk of adverse health effects.
    While the weight of the current scientific evidence has not 
conclusively linked cell phones with any health problems, we and other 
scientific organizations evaluating the available studies have 
concluded that better data are needed to establish any potential risks 
to humans from the low-level RF radiation exposures associated with 
their use.
    The Food and Drug Administration (FDA) nominated cell phone RF 
radiation emissions to the NTP for toxicology and carcinogenicity 
testing. The FDA nomination was based on the following concerns:
  --There is widespread human exposure;
  --Current exposure guidelines are based on protection from acute 
        injury from thermal effects;
  --Little is known about the potential for health effects of long-term 
        exposure; and
  --Sufficient data from human studies to definitively answer these 
        questions may not be available for many years.
    The NTP is working to provide information that will help clarify 
any potential health hazards, including cancer risk, from exposure to 
cell phone radiation and pave the way to better protection for public 
health. The NTP is in the initial stages of conducting toxicology and 
carcinogenicity studies in laboratory animals, using specially designed 
chambers to provide exposures that simulate those of cell phone users 
in the United States. The rats and mice will be exposed to 
radiofrequency energy from the two technologies (CDMA and GSM) \1\ 
currently used in the United States at two frequencies (900 and 1900 
MHz).
---------------------------------------------------------------------------
    \1\ CDMA is Code-Division Multiple Access, and GSM is Global System 
for Mobile communications.
---------------------------------------------------------------------------
    Because of the technical complexity of studying cell phone 
radiation, NTP staff are working closely with RF radiation experts from 
the National Institute of Standards and Technology (NIST). Through an 
interagency agreement, NIST scientists worked to develop an exposure 
system that would provide uniform exposures to RF radiation in 
unrestrained rodents in the frequency bands used in mobile 
communications. This design allows for exposures of up to 20 hours per 
day, in contrast to the most comprehensive rodent cancer studies 
carried out to date in Europe using restrained animals, where exposures 
were only 2 hours per day. The NIST system consists of 21 separate 
chambers specially assembled in Switzerland and installed in IIT 
Research Institute laboratories in Chicago. These 21 chambers are 
essentially shielded rooms with a transmitting antenna radiating RF 
fields and rotating stirrers to generate a statistically uniform field.
    The NTP is conducting studies in three phases: (1) a series of 
pilot studies to establish field strengths that do not excessively 
raise body temperature; (2) subchronic toxicology studies where the 
animals are exposed to various subthermal field strengths for 1 month; 
and (3) chronic toxicology and carcinogenicity studies where the 
animals will be exposed for 24 months. The studies are being carried 
out with both sexes of rats and mice and with pregnant female rats. 
Thus, these studies will examine potential health effects resulting 
from exposures starting in gestation and continuing through old age.
    The projected timeline is that pilot studies should be completed in 
November 2009. Subchronic toxicology studies then are expected to begin 
in early 2010, and the chronic toxicology and carcinogenicity studies 
are expected to start in late 2010, with an anticipated completion in 
2012 and subsequent reporting and peer review of the data in 2013-2014.
    Collectively, these rodent studies conducted by the NTP will 
provide critical information regarding the safety of exposure to RF 
radiation and strengthen the science base for determining any potential 
health effects in humans. These data could contribute to information 
used by the Federal Government, including FDA, in making decisions with 
respect to RF radiation health issues consistent with the protection of 
public health and safety.
    In addition to the NTP study, research is underway in academic 
institutions supported through the NIH extramural grants program. The 
research portfolio of the National Cancer Institute (NCI) includes 
several grants examining possible associations between cellular phone 
use and cancer. Internationally, an NCI-funded grant is exploring 
possible links between exposure to electromagnetic frequencies from new 
communication technologies and tumors of the brain and central nervous 
system. In the United States, researchers at five academic centers are 
undertaking the first concentrated effort to examine environmental and 
genetic risk factors for meningioma, a tumor that forms in the thin 
layers of tissues protecting the brain and spinal cord. Cellular phone 
utilization serves as one of the major environmental risk factors being 
considered in this study. These grants are expected to conclude in 2010 
and 2011, respectively, and findings will be made available shortly 
thereafter.
    NIEHS is using American Recovery and Reinvestment Act funding to 
support researchers at the University of California, Los Angeles, who 
are studying whether exposure to cellular telephones in childhood can 
have effects on the central nervous system. The cohort for the study 
consists of more than 100,000 Danish children born between 1996 and 
2007, with data gathered on cell phone use. The research team plans to 
study whether cell phone exposure might be related to behavioral and 
developmental problems, as well as other outcomes such as seizures, 
migraines, and sleep disturbances.
    Thank you for the opportunity to talk about these important 
studies. The NTP/NIH studies I have described represent a significant 
commitment to determining whether any risks to public health are posed 
by the current use of these mobile communication devices. I will be 
happy to answer any questions you may have.

    Senator Harkin. Thank you very much, doctor.
    I was asking who is the gentleman with you, but I 
understand you're here to try to fix up the PowerPoint 
presentation or something like that?
    Voice. Apparently I'm not good enough at that.
    Senator Harkin. It's not working or something. Well, that's 
all right.
    Did you have something else, Dr. Bucher, that you wanted 
to----
    Dr. Bucher. Now we have the PowerPoint presentation. We 
were just going to show some pictures to give you some sense of 
the magnitude of this operation. These are the chambers that 
were designed and built in Switzerland and shipped to IIT 
Research Institute in Chicago. You can see they're large enough 
to be placed on a crane and dropped through into an underground 
laboratory facility, where they're obviously being received and 
moved into place.
    Go ahead.
    Then here is a picture of the final series of 21 chambers.
    Senator Harkin. I don't understand what the chambers are 
for.
    Dr. Bucher. These chambers are where the rodent studies are 
going to be carried out. These are the exposure chambers where 
the RF radiation will be exposed to the animals.
    Senator Harkin. And you can vary the levels?
    Dr. Bucher. Vary the levels, yes.
    Senator Harkin. Dr. Bucher, the research you described at 
the NTP involves animals. I can certainly understand, since we, 
this subcommittee, have been involved with working with 
researchers for many years, I can understand the value of that 
sort of research. You can subject these rodents to radiation in 
ways that you wouldn't want to try on people, I guess and learn 
a lot about the basic science. But many other countries are 
doing studies involving humans, more so, it seems, than here in 
the United States.
    We're going to hear later about INTERPHONE, a collaboration 
involving 13 countries. In fact, practically every study that 
will be discussed by our second panel of witnesses took place 
overseas. So I guess kind of a two-part question. Why hasn't 
more been done here in the United States to look at the 
epidemiology of brain cancer among cell phone users? And why 
isn't the United States part of the INTERPHONE collaboration?
    Dr. Bucher. Senator, my understanding is that we do in 
fact, NCI does support part of the INTERPHONE study. The 
INTERPHONE study is a large study in 13 different countries 
that is supported by or is being coordinated by the WHO.
    Senator Harkin. But I don't see the United States? I have a 
list of them. I don't see the United States listed.
    Dr. Bucher. I have a record that we are in fact supporting 
one of the principal investigators on the INTERPHONE study. But 
I could check that certainly and make sure.
    [The information follows:]

    The National Cancer Institute (NCI) is currently funding 6 grants 
examining the relationship of cell phone use and brain cancer. Five 
population-based, case-control studies are underway in Connecticut, 
Massachusetts, North Carolina, Texas, and California examining intra-
cranial meningioma with respect to the genetic and environmental 
determinants of this disease. The NCI is also providing funding for an 
analysis of the INTERPHONE multi-country, case-control study cohort, 
specifically examining information on occupational exposures to 
electromagnetic radiation, chemicals, and the combination of chemical 
and electromagnetic radiation exposures with respect to development of 
gliomas, meningiomas, and parotid gland tumors.
    Grant Title.--Occupational exposures and brain cancer
    Grant Number.--R01CA124759
    PI.--Dr. Elisabeth Cardis
    Institution.--International Agency for Research on Cancer
    Project Start.--9/17/2007
    Project End.--11/30/2010
    The International Agency for Research on Cancer (IARC) coordinated 
a multi-national, case-control study of the possible association 
between use of cell phones and cancer risk. The INTERPHONE study was 
conducted in 13 countries using a common core protocol and focused on 
the risk of tumors originating in tissues most exposed to 
radiofrequency (RF) radiation from cell phones. The data collection was 
completed in 2006. A total of 2,613 glioma cases, 2,343 meningioma 
cases, and 7,557 controls were recruited between 2000 and 2005, making 
INTERPHONE the largest analytical epidemiological study of brain cancer 
ever conducted. The questionnaire provided detailed information on 
history of cell phone use, occupational history, and history of working 
with selected sources of exposure to electric and magnetic fields 
(EMF), particularly extremely low frequency (ELF) and RF fields.
    While the primary focus of the INTERPHONE questionnaire was the 
collection of a detailed cell phone history, the information collected 
in the occupational section of the questionnaire also provides an 
opportunity to address outstanding questions concerning the risk of 
brain tumors, such as glioma and meningioma, in relation to 
occupational exposure to EMF and selected chemicals.
    Dr. Cardis' study is using data from INTERPHONE to carry out an 
assessment of brain cancer risk in relation to occupational exposure to 
EMF and to selected chemicals. Their study's aims are to use the 
information on occupational exposures collected through the INTERPHONE 
study to:
  --Evaluate the possible association between occupational exposure to 
        EMF in different frequency bands and tumors of the brain and 
        central nervous system (specifically, glioma, and meningioma); 
        and
  --Evaluate the possible association between selected occupational 
        chemical exposures and tumors of the brain and central nervous 
        system (specifically, glioma, and meningioma).
    This study includes nine INTERPHONE countries: Australia, Canada, 
France, Germany, Israel, Italy, New Zealand, Sweden, and United Kingdom 
(North). Occupational exposure to ELF-EMF, RF-EMF, and selected 
chemicals is being assessed for more than 10,000 subjects, with nearly 
30,000 jobs using validated job-exposure matrices developed through 
this project. The assessment of EMF exposure is refined by 
consolidating information obtained from the job-exposure matrix with 
data on exposure variations related to the specific industry in which a 
subject worked, to the tasks he or she performed, and to the actual 
sources of exposure available from the INTERPHONE questionnaire. 
Analyses of the relationship between brain tumor risk and exposure to 
EMF and to the chemicals of interest will be carried out.
    Historically, the INTERPHONE studies began in Europe in part 
because of an earlier adoption of cell phone technologies than in the 
United States, coupled with the availability of centralized health care 
records. At the time INTERPHONE was launched, the NCI was conducting a 
hospital-based study on cell phone use and brain tumors (Inskip et al., 
N Engl J Med. 2001 Jan 11;344(2):79-86). Other studies (Muscat et al., 
JAMA. 2000 Dec 20;284(23):3001-3007 and Dryer et al., JAMA. 1999 Nov 
17;282(19):1814-6) were also underway in the United States, or were 
just being completed at that time.
    The Food and Drug Administration (FDA) provides recommendations on 
its Web site concerning use of cell phones by children. The FDA 
recommends limiting use of cell phones by children and using a headset 
or the speakerphone option. The use of a headset or speakerphone may 
reduce exposure to the brain since the phone will not be held next to 
the ear; however, RF radiation exposure will still occur to whatever 
part of the body is close to the phone. Also, some mobile communication 
devices emit lower levels of RF radiation than others (http://
www.ewg.org/cellphone-radiation/). The FDA acknowledges that some 
groups sponsored by other governments have advised that children be 
discouraged from using cell phones based on the precautionary 
principle.
    In 2007, the FDA requested that the National Academy of Sciences 
(NAS) convene a committee of experts to identify research needs 
relating to potential biological or adverse health effects of wireless 
communications devices. The committee released its report in 2008 
(available at http://www.nap.edu/catalog/12036.html).
    The committee recommended research in the following areas:
  --Characterization of exposure to juveniles, children, pregnant 
        women, and fetuses from personal wireless devices and RF fields 
        from base station antennas.
  --Characterization of radiated electromagnetic fields for typical 
        multiple-element base station antennas and exposures to 
        affected individuals.
  --Characterization of the dosimetry of evolving antenna 
        configurations for cell phones and text messaging devices.
  --Prospective epidemiologic cohort studies of children and pregnant 
        women.
  --Epidemiologic case-control studies and childhood cancers, including 
        brain cancer.
  --Prospective epidemiologic cohort studies of adults in a general 
        population and retrospective cohorts with medium to high 
        occupational exposures.
    With respect to human epidemiology studies of adults, the committee 
stated, ``[a] prospective cohort study will allow for the evaluation of 
diverse outcomes, but a very large sample size and extended follow-up 
would be required for rare outcomes or those that occur only with very 
long latencies. None of the occupational studies to date have been 
based on an adequate exposure assessment. Much work is needed to 
identify occupations with potentially high RF exposures and to 
characterize them.'' The study currently being carried out by Elisabeth 
Cardis (described above) includes an effort to transform occupational 
history and questionnaire data into meaningful estimates of exposure to 
electromagnetic fields.
    With respect to exposures to children, the committee stated, 
``[c]hildren are potentially exposed from conception through maternal 
wireless device use and then postnatally when they themselves become 
users of mobile phones. Owing to widespread use of mobile phones among 
children and adolescents and the possibility of relatively high 
exposures to the brain, investigation of the potential effects of RF 
fields in the development of childhood brain tumors is warranted.''
    The committee also recognized that the pending results of the 
INTERPHONE study, by far the largest case-control study of head and 
neck tumors to date, are likely to have a major influence on the 
direction and scope of future research concerning the use of cell 
phones and cancer. As of October 2009, the collected results from the 
INTERPHONE study have not yet appeared in the peer-reviewed literature.
    Concerning the costs of such studies, they will vary depending on 
the size and availability of appropriate study populations, the ease of 
access to existing and future information on health status, and the 
difficulty associated with establishing better measures of total 
exposures to electromagnetic radiation in the frequency bands used by 
cell phones.
    Huss et al., (Env. Health Perspect. 2007 Jan 1;115(1):1-4) carried 
out a systematic examination of the funding sources of research groups 
that conducted studies of controlled exposures to RF radiation in 
relation to a number of health-related outcomes. They reported on 59 
studies, 20 percent were funded exclusively by industry, 19 percent by 
public agencies or charities, 24 percent had mixed funding including 
industry, and for 37 percent the funding source was not specified. No 
comparable reports have examined funding of other types of research 
related to cell phones and health outcomes.
    The INTERPHONE study was funded in part by the mobile phone 
industry through the Mobile Manufacturers Forum and GSM Association. 
According to the General Accounting Office, studies carried out by the 
European Commission under its cell phone research program known as the 
Fifth Framework Programme are funded 40 percent by the European 
Commission and 60 percent by the mobile phone industry (GAO-01-545, 
Research and Regulatory Efforts on Mobile Phone Health Issues, May 7, 
2001).
    There is no specific information available concerning the types or 
extent of studies of health effects related to cell phone use that were 
not intended to be published in the open literature.
    When used in an area where reception is weak, the cell phone will 
increase the energy level of the emitted RF radiation in an attempt to 
communicate with the base station. If adverse health effects result 
from RF radiation, it is speculated that these effects would be 
produced to a greater extent from an increased level of RF radiation as 
opposed to a weaker level.
    There is little information available concerning the extent to 
which wireless phones were tested for health effects prior to coming on 
the market. In 1996, the Federal Communications Commission (FCC) issued 
regulations that placed a limit on the amount of local tissue heating 
permitted during the use of wireless communication devices. 
Manufacturers are responsible for testing their products for compliance 
with FCC regulations (GAO-01-545).
    The World Health Organization (WHO) established the International 
EMF Program in 1996 to assess the scientific evidence of possible 
health effects to EMF. As part of this effort, the WHO maintains a 
database of voluntary submissions of information on research projects 
that examine effects of EMF on biological systems (in humans, 
laboratory animals, and cultured cells and artificial systems). The 
database is searchable for specific frequency ranges and study types, 
and includes both published studies and ongoing work (http://
www.who.int/peh-emf/research/database/en/index.html).
    The database was last updated in May 2009. It contains listings of 
1567 projects. Two hundred and twenty-six projects are coded as 
epidemiology studies with electromagnetic fields encompassing the 
frequencies used by cell phones. Most include some type of evaluation 
of human health effects, although some relate to the use of cell phones 
while driving. Forty of these studies are listed as ongoing, with the 
majority in Europe. There are no ongoing studies listed in the United 
States, although as stated in the testimony, we are aware of at least 
seven studies supported by funding from the National Institutes of 
Health, with five of these underway in the United States.

    Senator Harkin. Well, I have 13 countries. I just don't see 
the United States listed. I'd like to know more about that.
    But go ahead, then. So why aren't we doing more on the 
epidemiology?
    Dr. Bucher. Well, I am not sure I can really answer that 
question. We have--I've been looking at the grant proposals 
that have come into the NIH. The one study that I mentioned 
earlier by Elisabeth Cardis is being funded by the NIH, and 
that is, as I understood it, looking at least some of the 
cohorts that are being put together for the INTERPHONE study.
    I do know that the FDA has been working and works with an 
international work group from Japan, Korea, the European Union, 
Australia, China, and the WHO. The United States participates 
in this international work group, where they meet every year, I 
believe, to discuss health effects research on emerging 
wireless technologies, go over recent biological research 
developments, and look at standards developments across the 
countries.
    They also do look into the prospects for international 
collaboration related to the safety of these devices.
    Senator Harkin. One last question, Dr. Bucher. You said--
and I underlined here--you said that, while the weight of the 
current scientific evidence has not conclusively linked cell 
phones with any health problems, we and the other scientific 
organizations evaluating the available studies have concluded 
that better data are needed to establish any potential risks to 
humans of these low-level RF radiation exposures.
    Okay, the key words to me are ``the weight of current 
scientific evidence does not conclusively link cell phones with 
health problems.'' What does that mean? Is the weight 60-40, 
55-45, 90-10, 99 to 1? What is the weight on this?
    Dr. Bucher. Well, I specifically said that better data are 
needed in my testimony. There have been lots of studies on cell 
phone radiation. There have been human studies. There have been 
studies in experimental animals. There have been a wide variety 
of studies where a variety of tissues from animals and cells 
from animals have been exposed to RF fields to try to determine 
whether there are biological effects.
    I think that each of these areas, with respect to this 
field, have weaknesses and I think that most people would 
generally concede that there are weaknesses in each arm of this 
three-legged stool, I guess, if you would, to provide the 
weight of evidence. Human epidemiology studies I think may be 
currently adequate for looking at events that are closely 
associated in time with the exposure itself. So you can look at 
behavioral effects while somebody is actually being exposed to 
cell phone radiation. You can look at effects on the immune 
system or something of that nature. But the thing that we're 
most concerned about is chronic effects, long-term, after long-
term use, and things that may take many, many years to develop.
    A lot of the epidemiology studies that have been done, the 
Interphone studies for example, suffer from the weaknesses that 
all of the participants acknowledge with respect to the fact 
that they rely on recall of how much one uses a telephone. They 
recall--they rely on--and this in fact introduces some biases 
that are inherent in these kinds of retrospective, what are 
called retrospective case control studies.
    The other major problem with epidemiological studies at 
this point is that there is only, as you mentioned in your 
opening remarks, there has only been 10 or 12 years of exposure 
to these agents and it's increasing dramatically. There have 
been some hints recently that there is an increase in brain 
cancers in people who have used these cellular communication 
devices for a number of years.
    Senator Harkin. Well, thank you very much, Dr. Bucher. I'm 
going to yield now to Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    You had mentioned children. What are the considerations 
with respect to an additional potential risk for children using 
cell phones?
    Dr. Bucher. What was the question?
    Senator Specter. What is the potential additional risk for 
children using cell phones? I read in a letter, sir, to give 
you a little help, that brain formation in its early stages may 
raise an additional susceptibility. Is there something to that?
    Dr. Bucher. I think with respect to many, exposures to many 
agents, as we study more and more agents and look at different 
life stages where these agents are being exposed to children or 
to animals----
    Senator Specter. Let's not take up animals. How about 
children? Is there a significant risk there? I've got 5 
minutes, Dr. Bucher.
    Dr. Bucher. Children have a configuration of their skull 
that does allow penetration of cell phone radiation deeper----
    Senator Specter. Are you saying there's a potentially 
greater risk?
    Dr. Bucher. I'm saying there potentially is a greater 
risk----
    Senator Specter. What limitations, if any--any parents that 
are watching this on C-SPAN, what should they do?
    Dr. Bucher. I wish I had a good answer to that. I think 
that----
    Senator Specter. Well, would there be a precautionary 
approach? I understand some of the foreign countries are 
recommending that there be a limitation. Is that true, on the 
use of cell phones?
    Dr. Bucher. Yes, that is true.
    Senator Specter. Would you recommend that?
    Dr. Bucher. I don't think we're in a position yet to make 
that recommendation.
    Senator Specter. How about the use of ear phones to 
minimize risk?
    Dr. Bucher. I think that's a good idea.
    Senator Specter. How would you do that specifically?
    Dr. Bucher. I understand that specific materials, such as 
the Bluetooth configuration, do reduce the exposure. That's my 
understanding.
    Senator Specter. Would you pursue that question and inform 
the subcommittee so we can inform the public something more 
precise?
    Dr. Bucher. Yes.
    [The information follows:]

    The Food and Drug Administration (FDA) provides recommendations on 
its Web site concerning use of cell phones by children. The FDA 
recommends limiting use of cell phones by children and. using a headset 
or the speakerphone option. The use of a headset or speakerphone may 
reduce exposure to the brain since the phone will not be held next to 
the ear; however, radiofrequency radiation exposure will still occur to 
whatever part of the ``body is close to the phone. Also, some mobile 
communication devices emit lower levels of radiofrequency radiation 
than others (http://www.ewg.org/cellphone-radiation). The FDA 
acknowledges that some groups sponsored by other governments have 
advised that children be discouraged from using cell phones based on 
the precautionary principle.

    Senator Specter. Also with respect to the children, 
something more definitive?
    There is a $24 million study under way. Is that adequate--
being conducted by a Federal agency.
    Dr. Bucher. This study is going to address one of the three 
aspects of the research program and I think from the standpoint 
of the animal experimental data it will be a state of the art 
study and it will answer----
    Senator Specter. Sufficient?
    Dr. Bucher. It will answer the questions to the best of the 
ability of that technology.
    Senator Specter. Should there be studies on humans in the 
United States, as there are elsewhere?
    Dr. Bucher. I certainly would suggest that there should be 
studies on humans, yes.
    Senator Specter. That would take extra funding?
    Dr. Bucher. I believe it would.
    Senator Specter. Would you give the subcommittee a 
recommendation on what sort of studies you'd recommend for 
humans and what at cost would be?
    Dr. Bucher. I could do that. I can't do that now. I could 
do that.
    Senator Specter. Tomorrow?
    I know you can't do that now, but do it as soon as you can?
    Dr. Bucher. Okay.
    [The information follows:]

    In 2007, the Food and Drug Administration (FDA) requested that the 
National Academy of Sciences (NAS) convene a committee of experts to 
identify research needs relating to potential biological or adverse 
health effects of wireless communications devices. The committee 
released its report in 2008 (available at http://www.nap.edukatalog/
12036.html).
    The committee recommended research in the following areas:
  --Characterization of exposure to juveniles, children, pregnant 
        women, and fetuses from personal wireless devices and 
        radiofrequency (RF) fields from, base station antennas.
  --Characterization of radiated electromagnetic fields for typical 
        multiple-element base station antennas and exposures to 
        affected individuals.
  --Characterization of the dosimetry of evolving antenna 
        configurations for cell phones and text messaging devices.
  --Prospective epidemiologic cohort studies of children and pregnant 
        women.
  --Epidemiologic case-control. studies and childhood cancers, 
        including brain cancer.
  --Prospective epidemiologic cohort studies of adults in a general 
        population and retrospective cohorts with medium to high 
        occupational exposures.
    With respect to human epidemiology studies of adults, the committee 
stated, ``[a] prospective cohort study will allow for the evaluation of 
diverse outcomes, but a very large sample size and extended follow-up 
would be required for rare outcomes or those that occur only with very 
long latencies. None of the occupational studies to date have been 
based on an adequate exposure assessment. Much work is needed to 
identify occupations with potentially high RF exposures and to 
characterize them.'' The study currently being carried out by Elisabeth 
Cardis (described above) includes an effort to transform occupational 
history and questionnaire data into meaningful estimates of exposure to 
electromagnetic fields.
    With respect to exposures to children, the committee stated, 
``[c]hildren are potentially exposed from conception through maternal 
wireless device use and then postnatally when they themselves become 
users of mobile phones. Owing to widespread use of mobile phones among 
children and adolescents and the possibility of relatively high 
exposures to the brain, investigation of the potential effects of RF 
fields in the development of childhood brain tumors is warranted.''
    The committee also recognized that the pending results of the 
INTERPHONE study, by far the largest case-control study of head and 
neck tumors to date, are likely to have a major influence on the 
direction and scope of future research concerning the use of cell. 
phones and cancer. As of October 2009, the collected results from the 
INTERPHONE study have not yet appeared in the peer-reviewed literature.
    Concerning the costs of such studies, they will vary depending on. 
the size and availability of appropriate study populations, the ease of 
access to existing and future information, on health status, and the 
difficulty associated with establishing better measures of total 
exposures to electromagnetic radiation in the frequency bands used by 
cell phones.

    Senator Specter. Private companies have made contributions 
to some of the studies, it's my understanding. Are you aware of 
that and to what extent the private companies are helping?
    Dr. Bucher. Yes, to some extent. I know there have been 
some studies that have looked at the literature with respect to 
who is funding particular investigators. The one study that I 
recall indicated that about 20 percent of the papers that are 
published from studies do acknowledge that there is funding 
from private----
    Senator Specter. Well, studies which look at the literature 
don't really go too far. Are there studies which do research 
beyond the research which has been done to be put in the 
current literature?
    Dr. Bucher. That's an area that's pretty difficult to 
answer. I don't know that I can answer that question.
    Senator Specter. Okay. Could you study that subject and 
give us a written response?
    Dr. Bucher. I will, Senator.
    [The information follows:]

    Huss et al., (Env. Health Perspect. 2007 Jan 1;115(1):1-4) carried 
out a systematic examination of the funding sources of research groups 
that conducted studies of controlled exposures to radiofrequency 
radiation in relation to a number of health-related outcomes. They 
reported on 59 studies, 20 percent were funded exclusively by industry, 
19 percent by public agencies or charities, 24 percent had mixed 
funding including industry, and for 37 percent the funding source was 
not specified. No comparable reports have examined funding of other 
types of research related to cell phones and health outcomes.
    The INTERPHONE study was funded in part by the mobile phone 
industry through the Mobile Manufacturers Forum and GSM Association. 
According to the General Accounting Office, studies carried out by the 
European Commission under its cell phone research, program known as the 
Fifth Framework Programme are funded 40 percent by the European 
Commission and 60 percent by the mobile phone industry (GAO-01-545, 
Research and Regulatory Efforts on Mobile Phone Health. Issues, May 7, 
2001).
    There is no specific information available concerning the types or 
extent of studies of health effects related to cell phone use that were 
not intended to be published in the open literature.

    Senator Specter. I note in the briefing materials that cell 
phones should not be used in areas where reception is weak or 
blocked, such as in elevators or trains. Is that so? And if so, 
why?
    Dr. Bucher. I believe that is correct, because the power 
that's required to reach the cell base station is higher in 
those situations. Therefore there is more RF radiation 
transmitted.
    Senator Specter. Well, in an elevator my phone customarily 
conks out. Is there more frequency which is imposed when I'm on 
an elevator with my cell phone.
    Dr. Bucher. I believe that's the case, because the cell 
phone is still attempting to reach the base station.
    Senator Specter. Well, the red light went on with our last 
comments. Would you give us a more definitive answer to that, 
as to exactly what is involved and why there ought to be extra 
precautions under those circumstances in an elevator or similar 
circumstances?
    Dr. Bucher. I will do that.
    [The information follows:]

    When used in an area where reception is weak, the cell phone will, 
increase the energy level, of the emitted radiofrequency radiation in 
an, attempt to communicate with the base station. If adverse health 
effects result from radiofrequency radiation, it is speculated that 
these effects would be produced to a greater extent from an increased 
level of radiofrequency radiation as opposed to a weaker level.

    Senator Specter. Thank you, Dr. Bucher.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Specter.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. Thank you for your 
leadership on this.
    Dr. Bucher, let me ask. You may have covered this in your 
opening statement and I missed it, but how long will it take 
you to do your analysis?
    Dr. Bucher. For the particular studies that I was 
describing, the analysis will be taking place in 2013 and we'll 
be reporting in 2014.
    Senator Pryor. Why does it take so long? Just because it 
takes that long in the lab to get it together?
    Dr. Bucher. There is about a 3-year time in which the 
animals will be exposed, and it takes about a year to analyze 
the study after that.
    Senator Pryor. Will there be any preliminary numbers or do 
we have to wait until the end to know where it's going?
    Dr. Bucher. It's a three-phase study and there will be 
information available from the first two stages earlier than 
that. But they won't be as definitive with respect to outcomes 
such as cancer.
    Senator Pryor. Do you know if wireless phones were tested 
by anyone before they came on the market? Do you know the 
history of that and how much testing was done or not done?
    Dr. Bucher. With respect to health-related testing, I do 
not know the answer to that. I can find----
    Senator Pryor. I think there would be a lot of people that 
would be curious about that, to know if anything was done. My 
sense is that there are people who have very strong suspicions 
about this, but I think we need to look closely at the science 
and look at the studies. I appreciate your efforts and what 
you're trying to do.
    [The information follows:]

    There is little information available concerning the extent to 
which wireless phones were tested for health effects prior to coring 
on, the market. in 1996, the Federal Communications Commission (FCC) 
issued regulations that placed a limit on the amount of local tissue 
heating permitted during the use of wireless communication devices. 
Manufacturers are responsible for testing their products for compliance 
with FCC regulations (GAO-01-545).

    Senator Pryor. Are there other studies going on, either in 
this country or around the world, that you're aware of?
    Dr. Bucher. There are many, many studies still going on 
around the world, yes.
    Senator Pryor. In other words, we'll get--yours won't be 
the first data that's released? We'll see other things between 
now and 2013?
    Dr. Bucher. I'm sure you will, yes.
    Senator Pryor. Are most of those going on in the United 
States or are they going on in other countries, or do you know?
    Dr. Bucher. I don't know the answer to that.
    [The information follows:]

    The World Health Organization (WHO) established the International 
EMF Program in 1996 to assess the scientific evidence of possible 
health effects to EMF. As part of this effort, the WHO maintains a 
database of voluntary submissions of information on research projects 
that examine effects of EMF on biological systems (in humans, 
laboratory animals, and cultured cells and artificial systems). The 
database is searchable for specific frequency ranges and study types, 
and includes both published studies and ongoing work (http://
www.who.int/peh-emf/research/database/m/index.htmal).
    The database was last updated in May 2009. It contains listings of 
1,567 projects. Two-hundred and twenty-six projects are coded as 
epidemiology studies with electromagnetic fields encompassing the 
frequencies used by cell. phones. Most include some type of evaluation 
of human health effects, although some relate to the use of cell phones 
while driving. Forty of these studies are listed as ongoing, with the 
majority in Europe. There are no ongoing studies listed in the United 
States, although as stated in the testimony, we arc aware of at least 
seven studies supported by funding from the National Institutes of 
Health, with five of these underway in the United States.

    Senator Pryor. Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Pryor.
    Dr. Bucher, I've got one of these. So just from a personal 
standpoint, we know the science is not quite definitive yet. We 
know what the weight of it is on that. But if I have a cell 
phone and I asked your professional opinion on this and I was 
going to talk on it like this, or if I could use this device 
here, which I plug into it, and then put this in my ear like 
this and hold this away from me, and I could talk here in my 
little microphone here, in your advice which would be best for 
me to do?
    Dr. Bucher. My understanding is that the position that 
you're holding the phone now is preferable to up against your 
head.
    Senator Harkin. Preferable to holding it up to your ear? So 
you would advise people who might be using a cell phone, as a 
precaution, because we don't know, that it would be better to 
have some kind of device like this?
    Dr. Bucher. As I understand it, yes.
    Senator Harkin. As opposed to a Bluetooth? A Bluetooth is 
an electronic device and it still receives the electromagnetic 
low frequency radiation, unlike this, which just comes through 
a line. So would this be better than, say, a Bluetooth-type 
device?
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Dr. Bucher. I must admit, I do not own a Bluetooth. I was 
under the assumption that the Bluetooth technology was what you 
were describing, but I'm incorrect.
    Senator Harkin. That's not Bluetooth, no. No, this is 
wired. This goes through a wire, a copper wire. Bluetooth is 
something that would receive from this device to a Bluetooth 
without any connection whatsoever, and therefore you would 
still get the RF right near your head. Even when you talk into 
the microphone on a Bluetooth, you're getting the transmission 
very close to your brain. On this, of course, it's down here, 
quite a ways away.
    Dr. Bucher. I stand corrected.
    Senator Harkin. But you would say this would be preferable?
    Dr. Bucher. Yes.
    Senator Harkin. To use that kind of device?
    Dr. Bucher. Yes.
    Senator Harkin. I'm going to ask the same question of the 
other panelists that come up. I'd like to see what they say, 
too.
    Well, thank you very much, Dr. Bucher. We have to move on. 
Thank you very much for your expert testimony and thank you for 
the work you do at the National Toxicology Laboratories. Thank 
you, Dr. Bucher.
    Now we'll call our second panel, a big panel. I will 
introduce them and you can come up and take your seats 
accordingly: Dr. Dariusz Leszczynski, a research professor at 
the Radiation and Nuclear Safety Authority in Helsinki, 
Finland, holds professorships in China and at the University of 
Helsinki in Finland. He earned his Ph.D. from the University of 
Helsinki, has lectured on the topic of mobile phones around the 
world, and has co-chaired two WHO workshops on this issue.
    Dr. Siegal Sadetzki--I hope I pronounced that correctly.
    Dr. Sadetzki. Not bad.
    Senator Harkin. Not bad? The head of the Clinical 
Epidemiology Department at Sheba Medical Center and Director of 
the Cancer and Radiation Epidemiology Unit at the Gertner 
Institute in Israel, which are affiliated with Tel Aviv 
University; received her M.D. from the Technion Medical School 
in Haifa; and a master's in public health from the Hebrew 
University of Jerusalem. Dr. Sadetzki wrote the Israeli 
Ministry of Health guidelines for the use of cell phones in 
adults and children.
    We have Dr. Linda Erdreich. Dr. Erdreich, a Senior Managing 
Scientist for Exponent, an engineering and scientific 
consulting firm. She has 30 years of experience in 
environmental epidemiology and health risk assessment; earned 
her Ph.D. in epidemiology from the University of Oklahoma and 
an M.S. in biostatistics and epidemiology.
    Dr. Devra Lee Davis is a Professor of Epidemiology at the 
University of Pittsburgh Graduate School of Public Health. She 
earned her Ph.D. in science studies at the University of 
Chicago and an MPH in epidemiology at Johns Hopkins. She has 
served on numerous governmental and international advisory 
boards and recently wrote the book ``The Secret History of the 
War on Cancer.''
    Last, Dr. Olga Naidenko--did I get that right?
    Dr. Naidenko. Yes.
    Senator Harkin. Okay. Dr. Olga Naidenko, a Senior Scientist 
at the Environmental Working Group (EWG), a Washington, DC-
based nonprofit organization, received her Ph.D. in molecular 
biology and immunology from UCLA, was the lead author on the 
report issued last week by the EWG on the topic of cell phone 
radiation.
    We welcome all of you here. We'll go Dr. Leszczynski--Is it 
``Li-CHIN-ski'' or ``Leh-ZIN-ski?''
STATEMENT OF DARIUSZ LESZCZYNSKI, Ph.D., D.Sc., 
            RESEARCH PROFESSOR, RADIATION AND NUCLEAR 
            SAFETY AUTHORITY, AND ADJUNCT PROFESSOR, 
            UNIVERSITY OF HELSINKI, HELSINKI, FINLAND
    Dr. Leszczynski. ``Leh-ZIN-ski.''
    Senator Harkin. ``Leh-ZIN-ski.'' We'll start with you and 
then we'll just go down. Again, I'd ask you if you could--5 to 
7 minutes, something like that, if you could summarize it, 
because I'm sure we'd like to get into a discussion with each 
of you.
    As I said, your statements will be made a part of the 
record in their entirety.
    Dr. Leszczynski, you're welcome and please proceed.
    Dr. Leszczynski. Thank you. Thank you very much for 
inviting me to this important hearing on a topic of great 
concern to all of us. My name is Dr. Dariusz Leszczynski. I am 
Research Professor at the Radiation and Nuclear Safety 
Authority in Finland. I am also Guangbiao Professor at the 
Zhejiang University in China and Adjunct Professor of 
Biochemistry at the University of Helsinki in Finland.
    At this point I would like also to thank Dr. Devra Davis, 
who made it possible for me to participate in this hearing.
    I have been doing basically experimental research in the 
field of biological and health effects of mobile phones for the 
past 10 years. The findings of my research group suggest that 
mobile phone radiation might induce biological responses. 
However, these findings do not yet prove that there exists a 
health hazard.
    My institution, the Radiation and Nuclear Safety Authority 
of Finland, has issued two advisories for mobile phone users. 
The first advisory, in 2004, was a part of the Nordic countries 
advisory that included Finland, Sweden, Denmark, Norway, and 
Iceland. The second advisory, in January 2009, was our own 
advisory focused on children using mobile phones.
    Children are of special concern because of their developing 
brain. Also, studies from industry and from academia suggest 
that children's brain is more exposed to mobile phone radiation 
than the adult brain when using a cell phone.
    Both advisories point out the uncertainty of the scientific 
evidence and the need for precaution in the use of mobile 
phones. The intention of both advisories is not to discourage 
people from using the mobile phone technology. However, they 
remind us that there are still large gaps in the knowledge of 
the mobile phone radiation effects on humans.
    The currently available scientific evidence about the 
effects of radiation emitted by the mobile phones is 
contradictory. In each area of investigation, there are both 
studies showing effects and studies showing no effect. For 
details on this issue, I would like to refer you to my written 
statement.
    In the present situation of the scientific uncertainty, the 
statements that the use of mobile phones is safe are premature. 
If I may repeat it to make it certain, in the present situation 
of the scientific uncertainty the statements that the use of 
mobile phones is safe are premature. In my opinion, the current 
safety standards are not sufficiently supported by science 
because of the very limited research on human volunteers, on 
children, and on the effects of long-term exposures in humans.
    This situation of uncertainty calls not only for 
precautionary measures, but also for further research. Apart 
from the epidemiological, animal, and in vitro laboratory 
studies, we need a new direction in research. We need 
international, well-designed, comprehensive, molecular-level 
human volunteer studies. These studies should be aimed at 
proving or disproving whether the human body responses to 
mobile phone radiation. In spite of years of research, we still 
do not have the answer to this basic question.

                           PREPARED STATEMENT

    However, obtaining research funds in this area is a major 
problem. Continuous assurances that there is no health risk 
that are coming from standard-setting committees have caused 
that the funding agencies are reluctant to fund new research. 
For many years, Europe has led the way in mobile phone research 
because the funding was available there. The research community 
is hoping that the United States will again get more involved 
in this much-needed research by providing necessary funding.
    In the meantime, while waiting for this new research, 
because of the existing scientific uncertainty it is wise to 
support the use of precautionary measures in everyday use of 
mobile phones in order to, whenever reasonably possible, limit 
the body exposure to mobile phone radiation.
    Thank you for your attention and I wait for your questions.
    [The statement follows:]
               Prepared Statement of Dariusz Leszczynski
    Thank you for inviting me to this important hearing on a topic of a 
great concern to all of us.
    My name is Dariusz Leszczynski and I am a research professor at the 
Radiation and Nuclear Safety Authority, Helsinki, Finland. I am also 
Guangbiao professor at the Zhejiang University School of Medicine in 
Hangzhou, China and adjunct professor of biochemistry at the University 
of Helsinki in Finland.
    I and my research group have worked in the field of biological and 
health effects of mobile phone radiation for the past 10 years. The 
basic finding of my group's research is that it appears that mobile 
phone radiation might induce biological responses in human cells and 
these responses might alter cell physiology. However, these findings do 
not yet prove that there exists health hazard.
    The currently available scientific evidence about the effects of 
radiation emitted by the mobile phones is contradictory. In each area 
of investigation: epidemiology, human volunteer studies, animal 
studies, laboratory in vitro experiments and biophysical mechanisms 
there are both positive and negative studies. By the sheer numbers, the 
negative studies outweigh the positive ones. This argument is used, and 
often abused, to support the notion that not only there are no proven 
health effects, but also that such effects are unlikely.
    In the present situation of the scientific uncertainty, when there 
are studies suggesting the existence of health effects of mobile phone 
radiation, the statements that the use of mobile phones is safe, are 
premature. In my opinion the current safety standards are not 
sufficiently supported because of the very limited research on human 
volunteers, children and on the effects of long-term exposures in 
humans.
    My institution, the Radiation and Nuclear Safety Authority in 
Finland, has issued two advisories for mobile phone users. In 2004, as 
part of the Nordic countries advisory, and in 2009 an advisory focused 
on children using mobile phones. Both advisories point out the 
uncertainty of the scientific evidence and the need for precaution in 
the use of mobile phones. The intention of both advisories is not to 
discourage people from using the mobile phone technology. However, they 
remind us that there are still large gaps in the knowledge of the 
mobile phone radiation effects on humans.
    In my opinion, to close these gaps we need well designed, 
comprehensive, molecular level human volunteer studies. Such studies 
should be executed by consortia of scientists and not by single 
research groups. These studies should be aimed at proving or disproving 
whether human body responds to mobile phone radiation and, if so, 
whether the response is of a sufficient magnitude to alter normal human 
physiology. In spite of years of research into human health risk of 
mobile phone radiation, we still do not have the answer to the 
fundamental question: whether human bodies (tissues, organs) react to 
mobile phone-emitted microwaves?
    However, obtaining research funds in this area is a major problem. 
Continuous assurances from ICES, International Commission on Non-
Ionizing Radiation Protection and the World Health Organization, that 
the mobile phone radiation does not cause any known health risk and the 
safety standards protect us all, have caused that the funding agencies 
are not interested in sponsoring new research.
    For many years Europe has led the way in mobile phone research 
because the funding was available there. The research community is 
hoping that United States will again get more involved in this much 
needed research by providing necessary funding.
    In the meantime, while waiting for this new research, because of 
the existing scientific uncertainty, it is wise to support the use of 
precautionary measures in everyday use of mobile phones in order to, 
whenever reasonably possible, limit the body exposure to mobile phone 
radiation.
    Thank you for your attention and I look forward to your questions.

    Senator Harkin. Dr. Leszczynski, thank you very much for 
your testimony.
    Dr. Sadetzki, welcome. Please proceed.
STATEMENT OF SIEGAL SADETZKI, M.D., DIRECTOR, CANCER 
            AND RADIATION EPIDEMIOLOGY UNIT, GERTNER 
            INSTITUTE, CHAIM SHEBA MEDICAL CENTER, TEL-
            HASHOMER, ISRAEL
    Dr. Sadetzki. Thank you very much. I'm greatly honored to 
testify at this important hearing on a subject which affects a 
substantial proportion of the world population and which has 
great importance for public health. My full resume appears with 
my written testimony. I am a physician, board-certified in 
epidemiology and public health. I am the Director of the Cancer 
and Radiation Epidemiology Unit at the Gertner Institute, 
affiliated at Tel Aviv University.
    I am involved in research and I advise the chief director 
of the Ministry of Health on health policy concerning radiation 
and cancer. I am currently engaged in collaborative studies of 
brain cancer funded, among others, by the NIH and the European 
Community. For more than 10 years I have been participating in 
research on the risk of tumors associated with cell phones, 
initially as the principal investigator of the Israeli part of 
the INTERPHONE study, the largest collaborative study conducted 
to date on this issue, and currently I lead the Israeli team of 
another study, also funded by the EU, on cell phones and 
children, called MOBIKIDS.
    In 2008, we published findings from the Israeli findings of 
the INTERPHONE study suggesting a risk of salivary gland, 
located right here, salivary gland tumors among people who have 
used cell phones for relatively long periods, when the phone 
was usually held on the same side of the head where the tumor 
developed and when use was relatively heavy.
    The Israeli Ministry of Health adopted the precautionary 
principle that briefly says better safe than sorry. It 
published recommendations for several simple and low-cost 
measures--this is really important; the measures are very 
simple and very low cost--that should be taken to reduce 
exposure. I believe that the clever engineers that are out 
there in the industry can very easily find creative solutions 
for that.
    These measures include speakers, earphones, hands-free 
devices when driving, and, as you said before, reducing the use 
of cell phones in areas where reception is weak. Special 
attention was given to children because we have many proofs 
that the children's population is specifically susceptible to 
carcinogenic effects. As said here before, guidelines have also 
been published in other countries, such as France, Finland, 
Canada, and others.
    Now, our findings are in line with some other studies of 
brain and acoustic neuroma--these are the nerves that control 
hearing--that demonstrated an increased risk of more than 10 
years of use and use on the same side of the head as the tumor. 
However, there is a debate among scientists, and this is where 
we are today, whether these observations are true or stem from 
methodological issues of epidemiological studies in general and 
those on cell phones specifically.
    I also appreciate these methodological issues. I suspect 
the results, but I respect the results primarily, the results 
that we have.
    I would like to explain one important point which 
illustrates the limitations of the existing data. I think it's 
an important point. During a duration of at least 10 years is 
the minimal time needed for solid cancer studies. In the case 
of brain tumors, it may reach even 30 to 40 years. For example, 
the atomic bombs in Hiroshima and Nagasaki occurred in 1945, 
where the first report demonstrating brain tumors among the 
survivors was not published until 1994, 50 years later. For 
leukemia it was published during the 50s and for other solid 
tumors it began to show in the 60s.
    Since widespread cell phone use began only in the mid-90s, 
the follow-up period in most published studies is only about 10 
years, which is insufficient to detect an effect. Since then, 
the amount of time people spend on cell phones has increased 
dramatically.
    There is a consensus that additional research is needed. As 
the United States has always been a leader in medical research, 
your making this topic a high priority would advance progress 
in this field. A multi-discipline, multinational effort built 
on previous research is essential. I think this is very 
important, not to invent the wheel, but to learn from the past 
experience.
    There are now 4 billion people using this technology, 
including children. Consequently, even if a small risk for an 
individual exists, the great number of users could eventually 
result in great damage. Until definite answers are available, 
some public health measures, with special emphasis on children, 
should be instituted. Preventive steps used for other 
technologies, such as driving, provide a good example. We all 
use cars, but in order to reduce the risks of accidents 
legislation was passed concerning the use of seat belts, air 
bags, speed limits, minimum age of driving, and car tests. I 
think it's exactly the same thing.

                           PREPARED STATEMENT

    I believe that cell phone technology, which has many 
advantages, is here to stay. However, the question as far as I 
am concerned, the question that needs to be answered is not 
whether we should use cell phones, but how we should use them. 
That's very easy to address, I think.
    It is my hope that the issues raised in this hearing will 
encourage you to promote research and take actions to ensure 
the safe and responsible use of cell phones.
    I would like to thank Dr. Devra Davis, who invited me here, 
and I would like to thank you for your attention and for 
raising this issue.
    [The statement follows:]
                 Prepared Statement of Siegal Sadetzki
                                preface
    I am greatly honored to participate in such an important forum at 
the United States Senate, and appreciate the invitation to present my 
research and the efforts made by the Israeli Ministry of Health to 
address the issue of cell phones and health. In this written statement, 
I will offer my opinion on a subject which affects a substantial and 
growing proportion of the world's population, and which I believe has 
great significance for public health.
    Appended to this statement is my full resume. I studied medicine at 
the Technion Medical School in Haifa, Israel, where I completed M.Sc. 
and MD degrees, and received an MPH from the School of Public Health at 
the Hebrew University of Jerusalem. I am also board certified in 
epidemiology and public health.
    I currently serve as the head of the Clinical Epidemiology 
Department at the Sheba Medical Center and director of the Cancer and 
Radiation Epidemiology Unit at the Gertner Institute, Israel, which are 
affiliated to the Sackler School of Medicine at Tel-Aviv University 
(where I hold an appointment as a senior lecturer). I also serve as the 
principal national investigator for tinea capitis (ringworm) research. 
These studies are conducted in abidance with a law that calls for 
evaluating health outcomes of treatment with ionizing radiation given 
for tinea capitis in the 1950s to about 50,000 children (most of them 
immigrants who came to Israel in the 1950s). The law was established in 
1994, to compensate the irradiated population for late radiation 
outcomes. In accordance with this law, my responsibilities include 
advising the Ministry of Health regarding compensation for diseases 
which have been found to be causally related to the irradiation, and 
developing medical guidelines for follow-up for this unique population.
    I am thus actively involved in research and in advising the chief 
director of the Ministry of Health for determining health policy 
concerning ionizing and nonionizing radiation and cancer.
    I am an official member of several national professional committees 
established to advise the Ministry of Health: These include, among 
others, the National Council for Prevention, Diagnosis and Treatment of 
Cancer, the National Council for Diagnostic Imaging, and the Advisory 
Committee on Cancer Epidemiology for the Director General. In addition, 
I have been nominated to participate in several ad hoc committees 
dealing with specific issues such as guidelines for Pap smear tests in 
Israel, etc.
    In my role as advisor, I authored the Israeli Ministry of Health 
guidelines for the use of cellular phones in adults and children, as 
well as the director general's statement concerning the Tinea Capitis 
Compensation Law (1994), and participated in the drafting of the 
director general's statements concerning guidelines for imaging 
procedures using ionizing radiation in children, and risks of radiation 
in cardiac imaging procedures.
    Since 2005, I have been a member of the Brain Tumor Epidemiology 
Consortium, an open scientific international forum organized to promote 
studies on brain tumors, for which I served as the European president 
between the years 2007 and 2009.
    I have conducted research on both ionizing and nonionizing 
radiation in children and adults with colleagues throughout the world, 
and am currently involved in a number of collaborative studies of brain 
and other cancers funded by the NIH, United States Army Medical 
Research Acquisition Activity, the European Community, and other grant 
institutions. About 85 peer-reviewed articles have been published from 
these studies.
                  studies on cell phone use and cancer
    For more than a decade, I have been involved in studies of the 
possible association between the use of cell phones and the risk of 
malignant and benign brain tumors, tumors of the acoustic (hearing) 
nerve and tumors of the salivary gland. I served as the principal 
investigator of the Israeli part of the international collaborative 
``INTERPHONE'' study, the largest epidemiological study conducted to 
date on this topic.
    This study (conducted between the years 2000 and 2005) was 
coordinated in the International Agency for Research on Cancer with the 
participation of 13 countries (Australia, Canada, Denmark, Finland, 
France, Germany, Israel, Italy, Japan, New Zealand, Norway, Sweden, and 
the United Kingdom). Several manuscripts on the methodology of this 
study have been published. While the overall results of the total group 
have not yet been published, several reports from individual centers, 
as well as a pooled analysis of five centers, have been published, each 
presenting their individual results.
    I am currently leading the Israeli part of another multi-national 
collaborative effort to investigate the risk of brain cancer from 
exposure to RF fields in childhood and adolescence (MOBIKIDS). This 
study was funded following the European Union's call for proposals 
within the Seventh Framework Programme. The study, with the 
participation of 16 centers from several countries in Australia, 
Canada, Europe, Israel, and New Zealand, will be conducted during the 
years 2009-2014. The study population will comprise individuals aged 
10-24 years, among whom about 1,900 will be cases diagnosed with 
malignant and benign brain tumors and about 3,900, healthy controls.
    It should be noted that in addition to cancer, there are other 
medical outcomes that also should be explored, including influence on 
brain activity, behavioral changes, learning patterns, emotional well-
being, immunologic pathways, fertility etc. Cultural, social, and other 
nonmedical outcomes should also be assessed.
         the israeli interphone study--country specific results
    In February 2008, the Israeli results of the assessment of the 
association between cell phone use and risk of benign and malignant 
parotid gland tumors (the major salivary gland located at the anterior 
border of the external ear, 4-10 mm deep in the skin surface, in the 
area close to where phones are often held) were published in the 
American Journal of Epidemiology. This nationwide Israeli study 
followed the core protocol of the INTERPHONE study and was extended to 
include a larger study population. While, as reported in other studies, 
no increased risk of these tumors was seen for the total group, 
consistent elevated risks were shown in complementary analyses 
restricted to conditions that may yield higher levels of exposure. An 
elevated risk of salivary gland tumors was seen among people who used 
cell phones for more than 10 years, especially when the phone was 
usually held on the same side of the head where the tumor was found, 
and when use was relatively heavy.
    Our findings of a higher risk with greater exposure (as expressed 
by laterality of use, more frequent use, and longer duration of use), 
are consistent with basic public health research criteria for what is 
referred to as a dose response relationship--the greater the dose or 
use of cell phone in our study (or exposure), the greater the response 
(i.e., the risk of developing a tumor). The Israeli population is 
characterized by exceptionally high levels of cell phone use as 
expressed by the cumulative number and duration of calls. This 
situation created an important opportunity for studying the effects of 
relatively high patterns of use, which did not exist in most other 
populations.
            methodological limitations of cell phone studies
    Our findings are in line with several other studies that 
demonstrated an increase in risk of developing malignant brain tumors 
and acoustic neurinoma (tumors on the nerve that controls hearing) 
associated with relatively long-term use (>10 years), and with cell 
phone use on the same side of the head as the tumor.
    However, there is a debate in the scientific community about the 
interpretation of these findings and whether these observations reflect 
a true association or stem from the numerous methodological problems 
that accompany epidemiological studies in general, and those on cell 
phones specifically.
    Epidemiological studies have the advantage of investigating human 
beings in real life situations. However, considering the complexity of 
exposures and health conditions in the population, epidemiological 
studies suffer from a handful of methodological challenges that need to 
be resolved in order to ensure valid results.
    The challenges of investigating a relatively new research topic 
like cell phones, and a devastating disease such as brain tumor, which 
can affect cognition and recall, are complex. Many articles and reports 
have criticized the methodology of the published studies, including 
that of the INTERPHONE. Unfortunately, I can not cover all of these 
methodological issues in this testimony; nevertheless, I would like to 
briefly mention some of them.
    Duration of at least 10 years is the minimal time needed for solid 
cancer studies and, in the case of brain tumors it may reach 30-40 
years. To illustrate this point, I would like to use the proven 
association between ionizing radiation and brain tumors that was 
assessed in the atomic bomb studies as an example. The A-bomb was 
dropped on Hiroshima and Nagasaki in August 1945. While an excess risk 
of leukemia among survivors was observed in the 1950s, and an increased 
risk of solid tumors was detected in the 1960s, no elevation in risk of 
brain tumors was noted among survivors for many years. The first report 
demonstrating brain tumors among the survivors was only published in 
1994 (almost 50 years later) and the first quantitative data for all 
intracranial tumors, in 2002. Consequently, even in the mid-1970s, it 
was not evident to the scientific community that ionizing radiation can 
cause brain tumors. Since widespread cell phone use really began only 
in the mid-1990s, the follow-up period currently available in most 
published studies is only a little more than 10 years, which is 
insufficient to detect an effect, if one exists. Moreover, in most 
studies, the ``dose'' of the exposure, as expressed by cumulative 
number of calls and duration of calls was also rather limited during 
the initial years of use. As current use is characterized by greater 
levels of exposure it increases the chance of finding an effect.
    As exposure to RF from cell phones is localized (98 percent of the 
energy is absorbed in the brain hemisphere on the side where the phone 
is used), analysis of cell phone use in relation to location of tumor 
is necessary for the interpretation of results of these studies.
    Valid tools for exposure measurements and assessment are crucial 
for accuracy of results. However, many difficulties exist in the 
exposure assessments of cell phones which have to account for 
laterality of use, period of use, patterns of use, technological 
aspects of the phones and networks, other exposures to electromagnetic 
radiation, not to mention the constantly changing technology. Lack of 
precision in these measurements could lead to errors and biases in the 
results. The data needed for these studies is usually taken from 
questionnaires based on self-reporting which are subject to 
inaccuracies due to problems such as recall. The alternative use of 
billing records is also limited due to technical problems in 
abstracting historical records, shared SIM cards, discrepancies between 
owner and user of the phone, as well as the inability to determine side 
of use and use of hands-free devices which dramatically lowers the 
exposure. Novel exposure metrics developed by a multi-disciplinary 
expert team including epidemiologists, physicists, and industry workers 
who are familiar with this technology are needed to facilitate accurate 
measurement of this complicated exposure.
                        future scientific needs
    Despite these difficulties, it is of utmost importance to see that 
such studies continue, given the broad range of uses and exposures that 
exist around the world today. I believe I am correct in saying that 
there is a consensus that the information currently available is 
insufficient. Therefore, additional extensive research is necessary to 
clarify this issue. As the United States of America has always been a 
leader in conducting scientific and medical research, your choice of 
this topic as a high priority is needed in order to make significant 
progress in this field. In view of the many challenges that complicate 
research on cell phones, I am convinced that a multidisciplinary 
multinational effort conducted in various populations, and benefiting 
from the experience acquired in previous studies is the optimal road to 
clarifying the health risks.
    It is important to note that the study populations of the research 
carried out so far were limited to adults. While at the time when cell 
phone use began, only adults used cell phones, since the beginning of 
the 21st century, increasing numbers of children have become users and 
even owners of cell phones. This population requires special attention 
since children have been found to be more susceptible to developing 
cancer following exposures to known carcinogens. Furthermore, the brain 
of a child is not just a smaller version of that of an adult and the 
radiation absorption in their head is different than adults. The 
observation of greater susceptibility at younger ages has been 
consistently shown in numerous studies and for a variety of known 
carcinogens. In our research as well, on the effects of ionizing 
radiation used to treat children with tinea capitis, the risk for 
malignant brain tumors 40 years after treatment was inversely related 
to age at time of irradiation. Children irradiated under 5 years of age 
exhibited a risk that was 4.5 times higher than that of children who 
had not undergone irradiation, while those irradiated at ages 10-15 had 
a risk that was 1.5 times higher than the nonexposed.
                      public health considerations
    There are now 4 billion people, including children, using cell 
phone technology. Consequently, even if there is only a small 
individual risk per person, the great number of users, together with 
the increasing amount of use, could eventually result in considerable 
damage. Therefore, until definitive answers are available, some public 
health measures with special emphasis for children should be 
instituted. Preventive steps implemented for other technologies 
associated with risks, such as driving, provide a good example. We all 
use cars, but in order to reduce the risk of accidents, legislation has 
been passed concerning the use of seat belts, speed limits, minimum-age 
requirements for driving licenses, and car tests.
    Based on the findings of my work and on reports from scientists in 
other nations, the Israeli Ministry of Health issued a statement on 
cell phone use that adopted the precautionary principle (that briefly 
means: ``better safe than sorry''). This approach rests on the 
important public health concept that: In case of doubt regarding the 
data, it is far better to prevent harm using simple and low cost 
measures than to wait for long-term results that confirm a health 
hazard that has already occurred. Therefore, in such cases, we must be 
prepared to act before scientific certainty has been achieved (using 
reasonable and low-cost activities).
    The recommendations of the Israeli Ministry of Health, include 
several simple, low-cost measures that should be taken to minimize 
exposure, such as using speakers and earphones, hands-free devices when 
driving, and reducing the use of cell phones in areas where reception 
is weak. Special attention was given to children, who have been found 
to be more susceptible to developing cancer following exposures to 
known carcinogens. The translation of these guidelines is attached.
    Guidelines have also been published in other countries. I will not 
mention all of the existing guidelines, but will give some examples 
with special emphasis on recommendations for children. It is 
interesting to mention that the definition of a child varies from 
country to country. The French Health Ministry has published a warning 
against excessive use of cell phones, especially among children, and 
has recommended avoiding calls when reception is weak and while 
driving, as well as for holding the phone away from sensitive areas of 
the body by using speakers or hands-free devices. It is also 
considering the possibility of banning the sale of cell phones designed 
for children under the age of 6, prohibiting the advertising of mobile 
phones directed at children less than 12 years of age, and requiring 
the manufacturers to develop cell phone that allow only sending and 
receiving messages.
    The Finnish Radiation and Nuclear Safety Authority (STUK) has 
recently suggested restricting the exposure of children to cell phones 
by encouraging the use of text messages rather than calls and the use 
of hands-free devices through which the phone is kept away from the 
body. Additional recommendations include advising parents to limit the 
number and duration of calls made by their children, and avoiding calls 
in areas with low reception or in a moving car or train. It is 
important to note that STUK does not believe that banning cell phone 
use in children is justified, as cell phones also promote security 
since they facilitate easy communication with parents.
    The Toronto Public Health Department suggested that parents should 
think twice before giving their children (especially pre-adolescents) 
cell phones. It also recommended that landlines should be used, 
whenever possible, while cell phones should be used only when 
absolutely essential. It was also suggested that the length of cell 
phone calls be limited, and that headsets or hands-free options be used 
whenever possible.
    In India, the Health Minister has recently suggested that people 
should not talk on a cell phone continuously for more than 1 hour a 
day, and that hands-free technology could reduce the side effects of 
excessive use.
    Recommendations have also been published in other countries such as 
the United Kingdom, Russia, Germany, and Belgium.
    The issue of what constitutes appropriate policy in this regard is 
not, strictly speaking, a scientific matter, but one of judgment. 
Scientists fulfill their role by providing concrete, independent 
information on potential hazards, while those charged with policy 
development have the more difficult job of recommending what to do 
about the problem, as science continues to evolve.
                                summary
    Advances in technology have improved the quality of our lives in 
many ways and these changes have been especially dramatic in the area 
of communication. I believe that cell phone technology, which has many 
advantages, and can save lives in emergency situations, is here to 
stay. However, the question that needs to be answered is not if we 
should use cell phones, but how we should use them?
    It is my hope that the issues raised in this forum have enabled the 
distinguished legislators in this hall to appreciate the need to 
promote research that will increase our understanding of the potential 
adverse effects and take actions which will ensure the safe and 
responsible use of cell phones, while research and technology continue 
to evolve.
    Thank you again for inviting me and for bringing attention to this 
important issue.

    Senator Harkin. Dr. Sadetzki, thank you very much for 
coming a great distance and thank you for your testimony.
    Now we move to Dr. Linda Erdreich, ``ERD-rick?''
STATEMENT OF LINDA ERDREICH, Ph.D., SENIOR MANAGING 
            SCIENTIST, EXPONENT HEALTH SCIENCES, CENTER 
            FOR EPIDEMIOLOGY, BIOSTATISTICS, AND 
            COMPUTATIONAL BIOLOGY, NEW YORK, NEW YORK
    Dr. Erdreich. ``ERD-rick.''
    Senator Harkin. ``ERD-rick,'' I got it right. Welcome and 
please proceed with your testimony.
    Dr. Erdreich. Good afternoon.
    Senator Harkin. You still have to punch that button.
    Dr. Erdreich. Thank you.
    I have been asked by the CTIA to appear today to provide my 
independent assessment of the science related to potential 
health effects from wireless phones. I am a Senior Managing 
Scientist at Exponent's Health Sciences Center. I have 30 years 
of experience in environmental epidemiology and health risk 
assessment. I earned a Ph.D. in epidemiology from the 
University of Oklahoma and I have a master of science in 
biostatistics and epidemiology. Much of my work includes 
assessing epidemiological research and integrating this 
information with that from other disciplines for determining 
whether human exposure can present a hazard to human health.
    At the Environmental Protection Agency I evaluated research 
related to chemical contaminants of air and water. These health 
evaluations were used to develop standards such as ambient 
water quality standards, exposure limits. I have prepared 
evaluations for chemicals, for RF energy, for electric and 
magnetic fields, and I've published in the peer-reviewed 
literature.
    Since 1991, I have been particularly active in updating 
standards regarding nonionizing radiation, which includes RF 
energy like that from wireless phones. I've served on advisory 
committees to government and regulatory organizations regarding 
health evaluations of chemicals and of electromagnetic fields.
    A little bit of background on cellular phones. Mobile 
phones operate using radio waves. Radio waves, also known as RF 
energy, is a range on the electromagnetic spectrum that 
includes broadcast radio, television, and other devices, 
including cordless phones, baby monitors, radar, and microwave 
ovens. Visible light is also part of this spectrum, but is at a 
higher frequency and shorter wavelength than RF. RF energy is 
not radiation in the same sense as for high frequency X-rays 
because the energy of RF is lower and unable to change the DNA 
of cells.
    There is a standard scientific approach used to determine 
whether an exposure source, such as RF energy, poses a health 
risk. This process first requires that all the published 
literature be considered, which will include studies that 
reported effects as well as those that have not. This is the 
method that I have used for evaluating the RF research and for 
other assessments throughout my career.
    In this process, after the literature is compiled each 
study is evaluated to assess its strengths and weaknesses, and 
more emphasis given to studies of better quality because 
they'll be more reliable. The purpose of this comprehensive 
review is to be objective. This approach is designed to ensure 
that we reviewers do not single out studies, consciously or 
inadvertently, to support a preconceived opinion.
    As for any health assessment, the relevant research 
includes many different methods. As we've heard today, this 
includes laboratory studies themselves, studies in animals, 
experimental studies of human volunteers, and epidemiological 
studies in human populations. Each of these approaches has its 
own specific strength and limitation, and together the studies 
provide complementary information, and numerous studies using 
these different approaches have been conducted over the past 50 
years regarding RF and health.
    Several scientific organizations--and these include 
Government agencies as well as professional organizations--have 
used this procedure to assess the potential for health effects 
from RF exposure. Some of them have set exposure limits to 
ensure safety of the public and of workers. These expert groups 
usually include scientists with different skills to reflect the 
different research expertise required to answer questions about 
potential health effects.
    While the conclusions vary, all of the agency reports that 
assess the evidence using a comprehensive approach reach 
similar conclusions: that the current scientific evidence does 
not demonstrate that wireless phones cause cancer or other 
health effects. A few examples follow.
    The agencies that have regulatory authority over RF 
emissions in the United States are the Federal Communications 
Commission (FCC), and the FDA. They've both reached similar 
conclusions. The FCC concluded there is no scientific evidence 
that proves that wireless usage can lead to cancer ``or other 
problems'' and the FDA states ``the weight of scientific 
evidence has not linked cell phones with health problems.''
    The conclusions of these agencies are similar to the 
conclusions reached by commissions around the world, including 
for example the Health Council of The Netherlands, which 
published a report in 2008. The European Commission has a 
committee called the Scientific Committee on Emerging and Newly 
Identified Health Risks and they wrote a report on RF. The WHO 
has an ongoing review process. The Australian Radiation and 
Nuclear Protection Safety Agency has recently posted statements 
on its Web site, and the Institute of Electrical and Electronic 
Engineers, the International Committee on Electromagnetic 
Safety, reviewed this in 2005 and is in the process of updating 
its review.
    But the most recent one was in 2009. The International 
Commission of Non-Ionizing Radiation Protection (ICNRP) has 
reviewed all of the evidence and one of its--one section of its 
report is an epidemiological study by Dr. Ahlbom in 2009. In 
his summary he wrote: ``In the last few years, the 
epidemiologic evidence on mobile phone use and risk of brain 
and other tumors of the head has grown considerably. In our 
opinion''--this is the ICNRP--``In our opinion, overall the 
studies published to date do not demonstrate a raised risk 
within approximately 10 years of use for any tumor of the brain 
or any head tumor.''

                           PREPARED STATEMENT

    Based on my review of the epidemiologic studies and 
consideration of the experimental data, I concur with the 
conclusions of the scientific organizations. The current 
evidence does not demonstrate that phones cause cancer or other 
adverse health effects.
    [The statement follows:]
                Prepared Statement of Linda S. Erdreich
                              introduction
    I am a senior managing scientist in Exponent's Health Sciences 
Center for Epidemiology, Biostatistics, and Computational Biology, and 
I have 30 years of experience in environmental epidemiology and health 
risk assessment. I earned a Ph.D. in epidemiology from the University 
of Oklahoma in 1979, and an MS in biostatistics and epidemiology in 
1977. My work includes assessing epidemiological research and 
integrating this information with that from other disciplines for 
qualitative and quantitative risk assessments. I have prepared analyses 
of complex epidemiological evidence for environmental and occupational 
chemicals, radiofrequency (RF) energy, electric and magnetic fields 
(EMF), and stray voltage, and have published in the peer-reviewed 
scientific literature. I have been particularly active in updating 
standards regarding nonionizing radiation, both low frequencies and RF. 
I have served on advisory committees to Government, regulatory 
organizations, and industry regarding health risk assessments of 
chemicals and EMF.
                               background
    Mobile phones operate using radio waves. Radio waves, or RF energy, 
is a range of the electromagnetic spectrum that includes AM and FM 
broadcast radio, television, and many other devices and technologies 
including cordless phones, baby monitors, radar, and microwave ovens. 
Visible light is also part of the electromagnetic spectrum, but is at a 
higher frequency and shorter wavelength than RF. RF energy is not 
``radiation'' in the same sense as used for high frequency X-rays, 
because the energy of RF is so much lower and is unable to change the 
DNA of cells. Although RF energy is sometimes referred to as ``EMF'' 
the contemporary usage of EMF refers primarily to the electric and 
magnetic fields associated with electricity from power lines and all 
electric devices. Electricity operates in the extremely low frequency 
(ELF) range, 60 cycles per second (60 Hz), in the United States. To 
avoid confusion, I will use RF in my discussion of mobile phones.
    Standard scientific methods are used to assess possible risks to 
human health. The standard scientific approach used to determine 
whether an exposure source, such as to RF energy, poses a health risk, 
is to look at all of the available research, including both studies 
that have reported effects, and those that did not. The goal is an 
objective, comprehensive review, in which the strengths and weaknesses 
of each study are evaluated, and more weight is given to studies of 
better quality. This approach is designed to ensure that reviewers do 
not single out studies, consciously or inadvertently, to support a 
preconceived opinion. Then, all of the studies are evaluated together 
to arrive at a conclusion. This is the method that I have used for 
evaluating the RF research and for other assessments throughout my 
career.
    The relevant research to be considered includes a broad spectrum of 
scientific research that uses different approaches to study potential 
effects of RF energy on humans. These different approaches have 
different strengths and limitations and provide complementary 
information: laboratory studies in cells and in animals, experimental 
studies of human volunteers, and epidemiologic studies of human 
populations. For this reason, scientific organizations convene panels 
of independent experts from the various areas of expertise (e.g., 
health physics, engineering, toxicology, clinical medicine, and 
epidemiology) relevant to the topic. Many scientific organizations 
consider pertinent studies to be those reports of scientific research 
or reviews that have been published or accepted for publication in the 
peer-reviewed scientific literature.
   independent scientific organizations worldwide have reviewed the 
                                research
    Independent scientific organizations worldwide have reviewed the 
research and proposed exposure limits. Many studies have been conducted 
over the past 50 years to examine whether exposure to RF energy has 
adverse effects on health, and to determine allowable levels of 
exposure. Several scientific organizations have reviewed the laboratory 
and epidemiologic research to assess the potential for health effects 
from RF exposure, and to set exposure limits to ensure occupational and 
public safety. These expert groups have included scientists with 
diverse skills to reflect the different research expertise required to 
answer questions about RF energy and health. Numerous government 
agencies and professional organizations have reviewed the science 
related to potential health effects from using wireless phones. While 
the specific conclusions vary, all of the reports that assess the 
evidence using multidisciplinary panels and a comprehensive approach 
reach similar conclusions; the current scientific evidence does not 
demonstrate that wireless phones cause cancer or other adverse health 
effects.
    The Federal Communications Commission (FCC) and the Food and Drug 
Administration (FDA), the agencies with regulatory authority over RF 
emissions in the United States, have both concluded that the current 
scientific evidence does not indicate that there are health hazards 
from using a wireless phone. The FCC's Web site states that ``[t]here 
is no scientific evidence that proves that wireless phone usage can 
lead to cancer or a variety of other problems, including headaches, 
dizziness or memory loss.'' The FDA's Web site similarly states that 
``[t]he weight of scientific evidence has not linked cell phones with 
any health problems.''
    In September 2008, the National Cancer Institute (NCI), the U.S. 
Government's principal agency for cancer research, published a Fact 
Sheet on Cellular Telephone Use and Cancer Risk that concluded that 
there is no consistent link between cellular telephone use and 
cancer.\1\ The NCI also stated that ``incidence data from the 
Surveillance, Epidemiology, and End Results (SEER) program of the 
National Cancer Institute have shown no increase between 1987 and 2005 
in the age-adjusted incidence of brain or other nervous system cancers 
despite the dramatic increase in use of cellular telephones.'' \2\
---------------------------------------------------------------------------
    \1\ See http://www.cancer.gov/cancertopics/factsheet/Risk/
cellphones.
    \2\ Id.
---------------------------------------------------------------------------
    The conclusions of these U.S. agencies are similar to the 
conclusions reached in reports prepared by various commissions and 
agencies around the world, including for example:
The Australian Radiation Protection and Nuclear Safety Agency (2009)
    ``There is essentially no evidence that microwave exposure from 
mobile telephones causes cancer, and no clear evidence that such 
exposure accelerates the growth of an already-existing cancer.''
Health Canada (2007)
    ``There is no convincing scientific evidence that RF exposures have 
any link to cancer initiation or promotion. The body of peer-reviewed 
literature in this area overwhelmingly demonstrates a lack of linkage, 
and where the few reports of linkage effects were found, some may be 
attributed to factors other than RF energy.''
The Health Council of the Netherlands (2008)
    ``The Committee maintained its conclusion that no causal link has 
thus far been demonstrated between health problems and exposure to 
electromagnetic fields generated by mobile phones or base stations for 
mobile telephony.''
The Scientific Committee on Emerging and Newly Identified Health Risks 
        of the European Commission (2009)
    ``Overall, research indicates that mobile phone use does not 
increase the risk of cancer, especially when used for less than 10 
years.''
The World Health Organization (2006)
    ``Considering the very low exposure levels and research results 
collected to date, there is no convincing scientific evidence that the 
weak RF signals from base stations and wireless networks cause adverse 
health effects.''
    The United Kingdom's Health Protection Agency and New Zealand 
Ministry of Health's National Radiation Laboratory also have reached 
similar conclusions after reviewing the available science.
    In September 2009, the International Commission on Non-Ionizing 
Radiation Protection's Standing Committee on Epidemiology published a 
scientific review of all of the available epidemiologic evidence on 
wireless phones and brain tumors. That review concludes:

    ``In the last few years, the epidemiologic evidence on mobile phone 
use and risk of brain and other tumors of the head has grown 
considerably. In our opinion, overall the studies published to date do 
not demonstrate a raised risk within approximately 10 years of use for 
any tumor of the brain or any other head tumor.''
                               conclusion
    Based on my review of the epidemiologic studies and consideration 
of experimental data in animals, I agree with the conclusions of the 
scientific organizations: The current scientific evidence does not 
demonstrate that wireless phones cause cancer or other adverse health 
effects.

    Senator Harkin. Thank you, Dr. Erdreich.
    Now we hear from Dr. Devra Lee Davis. Dr. Davis, welcome.
STATEMENT OF DEVRA LEE DAVIS, Ph.D., MPH, PROFESSOR, 
            DEPARTMENT OF EPIDEMIOLOGY, GRADUATE SCHOOL 
            OF PUBLIC HEALTH, UNIVERSITY OF PITTSBURGH, 
            PITTSBURGH, PENNSYLVANIA
    Dr. Davis. Good afternoon. It's an honor to be here today, 
especially as I haven't seen the two of you together since my 
confirmation hearings some time ago to the National Chemical 
Safety and Hazard Investigation Board.
    My background is in the record and my statement is as well. 
I'm going to speak to you today as a scientist, as a citizen, 
and as a grandmother. I am deeply concerned about the violation 
of the basic human right when it comes to where we are in cell 
phone research today. Democracy, as you know very well, rests 
on the right to know, on the freely given consent of the 
governed to be governed. I would submit that where we lack 
information about the potential hazards of a widespread 
technology, our basic right to know is being violated.
    We have to ask, why are other Governments issuing the 
warnings? Why are the Governments of Finland and Israel, which 
are no strangers to radar or electromagnetic technologies, why 
are they issuing concerns about this particular issue? I think, 
as you began your remarks, Senator Harkin, about tobacco, it's 
important for us to recognize that there is no one in this room 
today who doubts that we should have acted sooner about 
tobacco. Now, when we should have acted one can debate. But as 
I say in my book, we certainly could have acted in the 1950s, 
and when President Nixon started the war on cancer in 1971, an 
admirable act, he ignored tobacco, although the Surgeon General 
had warned about its dangers in 1964.
    I think it's fair to say we don't have a level playing 
field in this issue, and the absence of definitive 
epidemiologic evidence is not proof that there's not a problem. 
Rather, it's a reflection of the fact that we do not have a 
level playing field, that the United States today has not 
published a new epidemiologic study on brain cancer and cell 
phones since 2002; that although the NIH budget doubled, under 
Senator Specter's leadership, in 5 years, the budget for the 
NIEHS has only recently doubled. It took 11 years, sir, to get 
there, and that is the Institute that is charged with doing the 
study.
    I would point out the study we heard about from Dr. Bucher 
was originally proposed in 2002 and now we hear that because of 
delays, which I think I need not tell you why they occurred, 
because of those delays the study results will not be available 
until 2014. We are talking about a technology that affects 
every single one of us, whether we're users or inadvertently 
exposed.
    Now, Dr. Sadetzki has told you, I think in considerable 
detail, why epidemiology is difficult. I want to add that the 
Hiroshima data involved a single exposure to an atom bomb, that 
took 40 years before you could find an effect. We're talking 
about cell phones that many of us are using all the time, and 
children are using at unprecedented levels, and we have never 
been exposed to this level in our lives.
    I want to also tell you, unfortunately, that there has been 
a history here that I think we need to recognize. When 
Professors Henry Lai and Singh developed the pioneering new 
technique for measuring DNA damage, called the common assay, 
that shows you a tail of DNA when it's damaged, they developed 
that in 1994. If they'd been more modest, it would have been 
called the Lai and Singh assay, but it's called the common 
assay. Professor Lai is with us here today.
    When they developed that assay in 1994, they showed that RF 
exposure to brain cells of the rat could be damaging in terms 
of the common assay. The industry response, which has been 
documented and is in my book as well as other places, was this. 
First, they went to NIH and tried to get their funding revoked. 
Then they went to the journal that had accepted the article for 
publication and tried----
    Senator Harkin. Who are ``they?''
    Dr. Davis. The industry working against seeing this work 
published. And I have the details and the names of the PR 
firms, the individuals who wrote the memos, in my book, which 
I'll be happy to attach for the record.
    Then the same lobbyists tried to get the article unaccepted 
in a journal where it had been accepted. Finally, they hired 
other scientists to do advocacy research to try to invalidate 
the science. When those scientists actually confirmed the work, 
it was never published.
    A similar story can be told today in Europe about a major 
multi-million dollar EU-supported study called the Reflex 
program, that was a multi-laboratory study in many countries, 
that also showed evidence that RF signal at precisely the level 
of today's phones could damage DNA, contrary to the assertion 
that only ionizing radiation can damage DNA. Those researchers 
were also subject to the same kinds of attack and have recently 
been exonerated by an independent review by the Medical 
University of Vienna.
    So I think it's clear the United States needs to catch up. 
We need to catch up with our European allies and see that we 
issue warnings for our children as well.
    I have a very simple proposal. We definitely need major 
research on this issue. Unlike tobacco, almost everybody in the 
world is using a cell phone today. We need research 
desperately, but how are we going to fund that in this 
difficult time? I have a simple proposal. We can place a $1 
user fee on a cell phone every year for 3 years. There's not 
one parent in this room that wouldn't like to know what a cell 
phone will mean for their child's brain in the future. That $1 
fee should support international and independent research, 
because, unfortunately, we have not had independent research in 
this area.

                           PREPARED STATEMENT

    Finally, I believe it's appropriate at this time to ask the 
FDA and the FCC to review existing standards. Existing 
standards for cell phones are based on causing heat, avoiding 
the acute injury of a thermal effect. The way phones are used 
today, for periods unfortunately in some cases of hours, it's 
time for us to move beyond that to a new approach.
    I thank you both very, very much for your interest in this. 
I think you've done the world a great service by bringing us 
together. I want to say, I am not alarmed; I am concerned 
because the world has changed very rapidly and we have a right 
to know what that change may mean for our health and that of 
our grandchildren.
    Thank you very much.
    [The statement follows:]
                 Prepared Statement of Devra Lee Davis
    It is a distinct honor and great privilege to present information 
before this subcommittee on a matter of tremendous importance to this 
country and to the world--the relationship of cell phones to our 
health. This subcommittee is to be commended for bringing public 
attention to this issue through holding the first Senate hearing on 
cell phones in about three decades.
    My remarks today will draw on my three decades of experience as a 
public health researcher, teacher, and writer. I was the founding 
director of the Board on Environmental Studies and Toxicology of the 
U.S. National Research Council, National Academy of Sciences, where I 
also served as Scholar in Residence, from 1983-1993. I was confirmed by 
this body as Presidential appointee to the U.S. Chemical Safety and 
Hazard Investigation Board from 1994-1999. More recently I founded and 
directed the Center for Environmental Oncology at the University of 
Pittsburgh Cancer Institute from 2005 until 2009. I am currently a 
professor of epidemiology in the Graduate School of Public Health. I 
have served on numerous governmental and international advisory boards, 
including the National Toxicology Program Board of Scientific 
Counselors and the World Health Organization (WHO), health indicators 
program. I have also advised Governments in China, Mexico, Brazil, 
Israel, France, the European Union, and local governments throughout 
the world.
    Designated a National Book Award Finalist for my first popular 
book, When Smoke Ran Like Water, in 2002, my recent book, The Secret 
History of the War on Cancer, was a Newsweek must-read pick for the 
week and has just been released as a paperback. Both works have been 
translated into Italian and Chinese and the subjects of documentary, 
television, and public radio coverage.
    I have held a number of academic appointments including visiting 
professor at Carnegie Mellon University's Heinz School, honorary 
professor at London's School of Hygiene and Tropical Medicine, and 
expert advisor to the WHO. I have authored more than 190 publications 
in books and journals ranging from Scientific American to the Journal 
of the American Medical Association and the Lancet, and the Annals of 
the New York Academy of Sciences, and have also written for the New 
York Times, the Los Angeles Times, and other mass media outlets. 
Recently, I have established the Environmental Health Trust, a 
nonprofit foundation dedicated to identifying and controlling 
environmental causes of illness. Among the awards I have received are: 
The Lisa Zhang Environmental Award of the United Nations 2008, the 
Artemis Award from the Euro-American Women's Organization and the Greek 
Ministry of Foreign Affairs in 2009, the Women's Leadership Exchange 
Compass Award, presented by OPEN: The Small Business Network from 
American Express, for breaking the paradigms of how women are perceived 
and the first Rachel Carson Award from the Rachel Carson Homestead in 
2008. I was also privileged to be part of the group receiving the Nobel 
Peace Prize with Al Gore in 2007 for serving as a lead author of the 
Inter-governmental Panel on Climate Change.
    I speak to you today as a scientist, and as a citizen of this great 
democracy who is also a mother and a grandmother. I am deeply concerned 
about the absence of a major program of research on cell phones and our 
health. I want to know, as do the American people, why are other 
governments acting to warn about the need for safer cell phone use 
while ours is silent on the matter?
    This hearing presents a welcome opportunity to address a subject 
little discussed in the United States. We know that cell phones have 
revolutionized our lives for the better. They have radically changed 
the nature of emergency response and warfare. They have improved our 
sense of security. But, we must admit that we don't know whether some 
of their uses place us and our children at risk in the long term and 
whether there are simple measures to take to reduce those risks. 
Certainly, we have heard today of growing concerns about the impact on 
our health from cell phone use from distinguished researchers and 
national leaders of efforts in Israeli and Finland--countries with 
great sophistication regarding radar and electronics. We are agreed 
that additional research is critically needed to clarify the potential 
hazard of cell phones, which are currently being used by more than half 
of the world--a great proportion of today's users are under age 30.
    We have learned that Dariusz Leszcynski, Ph.D., DSc, who is a 
research professor at STUK--Radiation and Nuclear Safety Authority, 
Helsinki, Finland, and Siegal Sadetzki, MD, MPH, head of the Radiation 
and Epidemiology Unit at Sheba Medical Center, Gertner Institute of 
Epidemiology, Tel Aviv Medical University and a key advisor to the 
Israel Radiation Protection Branch, are conducting important research 
on the question of what cell phones may mean for our health.
    In Finland, Israel, China, and the European Union, governments are 
officially warning citizens about the safer use of cell phones even 
while that research is still underway. Similar advisories exist in 
England, France, and some of the states of India and Russia. We have to 
ask: What do these countries know that we do not?
    There is much that we do not know. It will be expensive to resolve 
many of the issues that must be addressed. But, we do have some 
information, as the meeting I am chairing in Washington, DC this week 
makes clear. We know that cell phone radiation, hereinafter referred to 
as RF, can cause biological impacts in experiments with cell cultures 
and with laboratory animals at levels that do not produce heat or 
thermal effects.
    We must admit that there is another reason why we in the United 
States lag behind other nations in addressing these problems. As I have 
documented in my book, The Secret History of the War on Cancer, public 
discussion in the United States about potential cell phone risks 
remains obscure because of well-honed efforts by some in the cell phone 
industry to keep us confused.
    The question before this body is what is direct evidence at this 
time on cell phones and health and what do we do while we wait for 
science to evolve?
    That question is not merely a matter that can be answered by 
science, but will require leadership and a vision of basic public 
policy. We must ask what is the downside risk of doing nothing to 
reduce exposures at this point, compared to the risk of acting as other 
governments have to issue warnings. We must also consider what sorts of 
policy options should be used to convey information and whether it is 
appropriate for this Government to take specific actions at this time 
that are in line with those taken by others.
    Let me stress that the science on this issue is truly complex. It 
will be expensive to resolve many of the issues that must be addressed. 
The battleground has been drawn in the realm of both experimental 
findings and with regard to public health research. Henry Lai has 
pointed out that if one examines the funding for studies, a simple 
pattern emerges--studies funded by industry directly are overwhelmingly 
negative and find no effect of RF in animals or humans. Those studies 
that are independently funded and have examined people for a decade or 
longer tend to be positive and find that radiofrequency (RF) is linked 
with a host of ailments, ranging from cardiac disturbances to fatal 
brain tumors. The challenge we face is enormous. While science 
continues to evolve in its understanding of RF signals and our health 
what do we do while we wait? That question is not merely a question of 
science, but of basic public policy.
    Science is a complicated discipline. When it comes to evaluating 
potential hazards in the environment, we do not have the luxury of 
waiting several decades for scientific clarity. We are forced to take 
precautionary steps while scientific information becomes clearer. The 
existence of scientific uncertainty should not become an excuse for 
inaction. In this regard, the decision to take no action, to do 
nothing, must be understood as a decision to continue the status quo.
    As you are well aware the history of regulatory interests makes it 
clear that in the matters of lead in gasoline and the control of 
tobacco had we acted sooner to reduce these hazards millions would have 
been spared damaged brains and lungs. This history tells us that we are 
obliged to make good sense of what is known at this time about cell 
phones and our health.
    As this chamber knows full well from the sorry history of tobacco, 
those who do not like particular scientific findings have proven 
especially adept at treating science as nothing other than a public 
relations tool. Yet, there is no one reading this testimony who doubts 
we should have acted sooner to address the hazards of smoking or those 
of lead in gasoline.
    As this body itself determined, the reasons for delays in 
controlling tobacco had much to do with politics not with science. When 
President Nixon launched the ``War on Cancer'' in 1971, he ignored the 
Surgeon General's 1964 declaration that tobacco was a cause of poor 
health. And President Jimmy Carter fired Secretary of Health, 
Education, and Welfare Joseph Califano in 1979, when Califano had the 
nerve to declare tobacco public enemy number one. At one point in the 
1970s, the National Cancer Institute (NCI) was led by a 4 pack-a-day 
smoker who spearheaded an effort to spend taxpayer dollars to develop a 
safe cigarette. The U.S. Government actually spent millions of taxpayer 
dollars to develop a safe cigarette and continued to subsidize tobacco 
well into the 1990s. The Government only began to try to restrain this 
dangerous habit about a decade ago, after the epidemic of smoking-
related disease became undeniable and after incontrovertible evidence 
was revealed of the duplicity of the tobacco industry in manipulating 
science and regulatory policy on the issue.
    As a result of these delays in addressing the dangers of tobacco, 
the world is now reeling from a massive global epidemic of lung cancer, 
with more than 1 million cases expected this year in China alone.
    What about cell phones? What do we really know about their safety? 
Consider these undisputed facts.
    Fact.--Brain tumor rates are increasing in young adults in several 
nations, including this one. Brain cancer deaths are now the leading 
cause of cancer deaths in children in this Nation, Sweden, and 
Australia among others. In truth, we cannot attribute this or the 
puzzling and sad rise in autism to cell phones. But, clearly this is a 
matter that requires serious attention.
    Fact.--The Federal Communications Commission (FCC) sets standards 
for the amount of RF that can be emitted by a cell phone is based on 
models of a man's head. And not just your average Joe, but also one who 
ranked at the top 90th percentile of all military personnel in 1988, 
weighing in at 200 pounds, and who held the phone to his ear for 6 
minutes. Also, what few parents know is that RF signals reach much more 
deeply into children's thinner and smaller heads than ours--a fact 
established through the pioneering work of Professor Om P. Gandhi, the 
leader of the University of Utah's electrical engineering department 
and confirmed recently by studies developed by Niels Kuster and his 
colleagues in Austria. While these two engineers may differ on the 
details of their models of the brain, their work makes it clear that 
children's brains differ in important ways from those of adults. Their 
skulls are thinner. Their brains contain more fluid. As a result, even 
if exposures were identical in the depth of the skull that they reach, 
the potential for doing damage is much greater with the young brain. 
Whether the elderly face different risks is also an important question 
to explore.
    Fact.--The agency that offers recommendations on cell phone 
emissions in the United States--the FCC doesn't employ a single health 
expert. The standards the FCC adopts are based on advice given by 
outside experts, many of whom work directly for the cell phone 
industry. Unlike with drugs that are tested before being used, the Food 
and Drug Administration (FDA) lacks the authority to set standards for 
cell phones and can only act if a phone is shown to release hazardous 
signals.
    What's wrong with this picture? The award-winning Gandhi worries 
that all the standards used for phones apply to the ``big guy'' brain. 
In 2004, standards became looser as a result of a new approach that 
basically doubled the amount of RF that could reach the brain of an 
adult and quadrupled that reaching a child's. The brain of a child 
doubles in the first 2 years of life and keeps on developing until 
their early 20s. Gandhi no longer works with the cell-phone industry 
and none of his grandchildren, or mine, uses a cell phone.
    Fact.--Many of the negative studies on cell phones and human health 
involve short period of exposure with much older phones. Thus, one of 
the most widely cited studies of cell phone safety is that of the 
Danish Cancer Society, which studied close to half a million cell phone 
users as of the mid-1990s. They excluded all business users from their 
study--the group most likely to use the phone the most. They found no 
increased risk in all the others.
    Surely, today's phones and the ways we use them are far different 
from what went on in Denmark a decade ago, when cell phones were as 
heavy as small briefcases.
    Proving harm in science is not a simple matter, especially when it 
comes to a technology as powerful and widely used as cell phones are 
today. The science that is implicating cell phones today includes both 
experimental modeling like that developed by Gandhi and Kuster, as well 
as the ever-more perplexing studies of epidemiologists. Coming from two 
Greek words ``epi'' meaning upon and ``demos'' the people, 
epidemiologists look for patterns of disease in time and space to make 
sense of the real world. Studying brain cancer is one of the toughest 
jobs in epidemiology. What happens to moms and dads where they live and 
work and what they eat and drink can have an impact on whether children 
develop brain cancer. So, we know that men or women who work with some 
pesticides and solvents tend to have children with much higher rates of 
brain tumors.
    But the disease can take 40 years to develop in adults. Because 
most adults with brain cancer don't survive, and those who do are often 
left with problems of speech and recall--either from the disease itself 
or from the treatment--we often have to interview their remaining 
family members about their life histories and try to figure out what 
could have led to the disease. Few of us really know all the good and 
bad things we've dealt with in our lives, let alone those of our 
relatives.
    When it comes to sorting through the risks of cell phones, we have 
been assured by widely publicized reports from what appear to be 
independent scientific reviewers that there is none. Researchers from 
the Danish Cancer Society reported in the Journal of the NCI in 2007 
that they found no evidence of risk in several hundred thousand persons 
who had used cell phones. Headlines around the world boasted of this 
latest finding from an impeccable source published in a first tier 
scientific journal.
    The press coverage of this study tells us a great deal about what 
journalists and the rest of us who depend so heavily on these phones 
would like to believe. These headlines appeared within days of 
publication:
  --``Cell Phones Don't Cause Brain Cancer''--The Toronto Daily News, 
        December 10, 2006;
  --``Cell Phones Don't Raise Cancer Risk''--Reuters, December 6, 2006;
  --``Big Study Finds No Link Between Cell Phones, Cancer''--San Jose 
        Mercury News, December 6, 2006;
  --``Study: Cell Phones Do Not Cause Cancer''--Albuquerque Tribune 
        December 6, 2006;
  --``Study: Cell Phones Safe''--Newsday December 7, 2006; and
  --``Cell Phones Do Not Cause Cancer''--Techtree.com, India, December 
        7, 2006.
    But let's look at what the Danish researchers actually studied.
    They reviewed health records about brain tumors that occurred up to 
2002 of about 421,000 people who had first signed up for private use of 
cell phones between 1982 and 1995. A ``cell phone user'' in the study 
was defined as anyone who made a single phone call a week for 6 months 
during the period 1981 to 1995. In fact, the study first started out 
with almost 700,000 people, but the researchers kicked out anyone who 
was part of a business that used cell phones, including those who had 
used a cell phone for personal purposes for 8 years. Think of those 
early clunker phones with their battery packs, cumbersome cords, and 
hefty monthly fees--those are the phones first examined in this study. 
Business users are certain to be those with lots of reasons to some 
lots of time on the phone. Because researchers could not be sure that 
only one person used a business phone, they threw out all business 
phones.
    This research design raises a lot of questions. Why did the 
researchers not look at individual business users--those with far more 
frequent use of cell phones? Why lump all users together, putting those 
who might have made a single cell phone call a week with those who used 
the phones more often? Why stop collecting information on brain tumors 
that had occurred only as of 2002? Use of cell phones has grown more 
than fourfold since that time in many countries, including many parts 
of the United States, the United Kingdom, France, and Israel.
    When you are looking at a large population to find an effect, 
generally the more people you study, the better your chance of finding 
something. But if you include lots of people with little exposure along 
with those with very high exposure, you basically lower your chances of 
finding any effect at all. Lumping all these various users together is 
like looking all over a city for a stolen car when you know it's within 
a five-block radius. Perhaps you'll find what you're looking for, but 
the chances are greater that you won't.
    If you want to find out whether cell phone use causes brain cancer, 
the higher the use or exposure of those you are examining, the better 
the odds that you will be able to find whether or not it's made a 
difference. It's clear that the early analog phones must be different 
than the newer digital ones. We hope the difference is big and that 
those of us using phones today face a lowered risk, but we have no way 
to know whether this is the case. Some of us believe (and hope) that 
using speakerphones or earpieces connected by wires--not the hands-free 
kinds--should reduce our direct exposures, but, again, direct evidence 
on this is not at hand.
    In all circumstances, research works best when we have solid 
information on the nature of the use or exposure we are looking at. All 
of us have cell phone bills that provide detailed records of our use, 
and most of these can be accessed online. These were not used in this 
Danish study, nor in any study done for or by the industry to date. A 
gold mine of data lies untapped and so far untappable. Dr. David 
Servan-Schreiber, a distinguished psychiatrist and medical researcher, 
and author of the best-selling book, Anti-Cancer, and I are working 
with cell phone companies in France and elsewhere to encourage the 
release of billing records so that epidemiologists can carry out much 
more sophisticated studies than have been possible thus far.
    The Danish study, as the headlines made clear, found no increase in 
risk of brain cancer for private users of cell phones. The reason the 
researchers were looking for brain cancer is straightforward. As the 
authors noted, cell phone signals do penetrate the brain. ``During 
operation, the antenna of a cellular telephone emits radio frequency 
electromagnetic fields that can penetrate 4-6 cm into the human 
brain.'' \1\
---------------------------------------------------------------------------
    \1\ Joachim Shuz, et. al., ``Cellular Telephone Use and Cancer 
Risk: Update of a Nationwide Danish Cohort,'' Journal of the National 
Cancer Institute 98, no. 23 (2006): 1707-13.
---------------------------------------------------------------------------
    There is, however, a vibrant debate over what this absorption into 
the brain means biologically.
    We know that the body is electric and that electricity in medicine 
can be used to heal bones and restart or regularize heart beats. But 
what about RF signals themselves?
    We know that cell phone signals can reach the side of the head 
where the auditory nerve is located. An earlier Swedish study, compared 
more than 1,400 people with brain tumors to a similar number without 
the disease during the time 1997-2000. They found that tumors of the 
hearing nerve were three times more frequent in those who had used cell 
phones for more than a decade.\2\ This difference even passed the 
demanding scientific test of statistical significance, which 
essentially shows that the results are not likely to be just some 
random finding. In 2004, other Swedish researchers found that long-term 
users also had significantly more tumors on the hearing nerves than 
nonusers.\3\ My colleagues at the University of Pittsburgh Graduate 
School of Public Health and Medical Center have recently confirmed this 
result, in work that is attached to this testimony--persons using a 
cell phone for a decade or longer have significantly elevated risks of 
acoustic neuromas.
---------------------------------------------------------------------------
    \2\ L. Hardell, et al., ``Case-control study on the use of cellular 
and cordless phones and the risk for malignant brain tumours,'' 
International Journal of Radiation Biology 78, no. 10 (2002): 931-936.
    \3\ S. Lonn, A. Ahlbom, P. Hall, and M. Feychting, ``Mobile phone 
use and the risk of acoustic neuroma,'' Epidemiology 15, no. 6 (2004): 
653-659.
---------------------------------------------------------------------------
    Of course, most of the published work in the field is negative, but 
it turns out that much of this is inconclusive by design. But, is that 
really the end of the matter? We know that tumors of the hearing nerve 
and malignant cancers of the brain can take decades to form. All of 
these widely publicized negative studies have several things in common. 
One study that was well publicized in 2000 found no increased risk of 
brain cancer in cell phone users. There's only one problem with this 
result--the average cell phone users in this widely publicized study 
had a phone for less than 3 years.\4\ Still, even this limited study 
found that those who had used phones for this short period of time had 
twice the risk of a very rare brain tumor--neuroepitheliomatous 
cancers--the kind that wraps itself around the nerve cells of the 
lining of the brain--right at the locus that cell signals can reach.
---------------------------------------------------------------------------
    \4\ Joshua E. Muscat et. al., ``Handheld Cellular Telephone Use and 
Risk of Brain Cancer'', Journal of the American Medical Association 
284, no. 23 (2000): 3001-3007.
---------------------------------------------------------------------------
    One of biggest challenges to any study of cell phones and human 
health is that the problems they are trying to understand are 
inherently complex. Science works best to study one thing at a time, as 
we do with drugs in clinical trials carefully meting out specific doses 
and tracking specific responses. But, the world we live in is much 
messier and more complicated than the elegant one of clinical research. 
The problems posed by cell phones in the real world are like huge 
simultaneous equations-mathematical formulas of relationships between 
multiple unknowns. How can you determine the role of one factor, such 
as cell phone exposure to the skull, when all others, like diet, 
workplace conditions, and local air pollution, are changing at the same 
time and at different rates? How do you take into account the fact that 
phones themselves have changed design and that peoples' habits in using 
phones may also change with reports of concerns growing?
    Given how broadly cell signals now penetrate our worlds of the 
coffee shop, traveling discounted buses, airports, and many downtown 
areas of major cities, where do we find any truly unexposed groups to 
compare results against? Because cell phone use has grown so fast and 
technologies change every year, it is as if we are trying to study the 
car in which we are driving.
    Some of the works done in laboratories at the Medical University of 
Vienna and elsewhere clearly showed that wireless signals could affect 
the ways cells talk to one another to stay under control--what is 
called gap-junction communication. Under healthy conditions, cells send 
messages through proteins and enzymes that keep things in order and 
tell badly behaving cells to get in line or die. Wireless signals were 
shown to throw a monkey wrench into this order. Like teenagers, cells 
that can't communicate well are prone to grow out of control. In 
essence, the wireless signals promoted a kind of social breakdown among 
cells.
    As Dr. Sadetzki has told us, the human health component of the 
study of cell phones remains unfinished, and it may well be 
unfinishable. A major international study of brain cancer in wireless 
phone users has been underway for nearly a decade, headquartered at the 
renowned International Agency for Research on Cancer (IARC) of the WHO 
in Lyon, France. The large study was designed to combine more than 
3,000 cases of brain tumors from around the industrial world and was 
supposed to release its results in almost 5 years ago.
    At the core of the IARC project is a major effort to learn from 
brain cancer patients whether they used cell phones more frequently 
than did others. The limits of the work are easy to grasp. The ways to 
overcome them are not. Still, some German findings published in 2006 
are disquieting. Keep in mind that not a single one of these studies is 
actually using billing records of cell phone use. All of them require 
people to try to remember their habits more than 10 years or so.
    The German study captured information about the daily lives of 
people in Mainz, Bielefeld, and Heidelberg. What did they have for 
breakfast regularly? Where did they live? How often did they use the 
cell phone? For how long? On which ear? These are the sorts of things 
epidemiologists like me hope you remember. This work contrasted the 
life experiences and reported cell phone use of 366 people with deadly 
tumors of the brain called gliomas and 381 with slow-growing, usually 
benign tumors of the membranes that cover the spinal cord, against some 
1,500 people between the ages of 30 and 69 who had better luck and did 
not have brain tumors. When asking both groups about their past and 
current uses of cell phones, they did not find any increased risk in 
those who used phones for less than a decade. That was not the end of 
this work, however, but merely the start.
    In this same study, those who reported having used cell phones for 
10 years or more had twice the risk of coming down with gliomas.\5\ 
This is a tumor that begins in the glial cells of the brain, the 
nonconducting cells that support the neurons and hold them together. 
The growth of gliomas can be silent, with symptoms that mimic flu or a 
headache. But eventually, they become undeniable. People lose speech, 
sight, movement or hearing, depending on where the tumor starts and 
where it ends up.
---------------------------------------------------------------------------
    \5\ Joachim Schuz et. al., ``Cellular Phones, Cordless Phones, and 
the Risks of Glioma and Meningioma (INTERPHONE Study Group, Germany),'' 
American Journal of Epidemiology 163, no. 6 (2006): 512-520.
---------------------------------------------------------------------------
    It should be obvious that looking at people with a fatal illness 
and asking them to try hard to remember what they did up to 40 years 
ago in some cases is not easy. Doing this the day after brain surgery 
in the hospital is obviously not an ideal situation for obtaining 
records.
    With all the highly automated information governments now assemble 
to combat terror, including library and cell phone records, what would 
it take for authorities to allow expert scientists access to privacy-
protected, coded, computerized records of cell phone use so that we 
could learn whether our use of cell phones places us at risk from a 
disease that could be averted through better design and technology?
    That's not a question likely to get much attention at this moment, 
but it is well worth thinking about. The studies to date that have not 
found a general, clear, and consistent risks from cell phones have 
tended to follow people for short periods of time. Brain tumors can 
take four decades to become evident. Of necessity, the older studies 
have for the most part have looked at older technologies over short 
periods of exposure. With one exception, no researcher has asked about 
the impact of cell phones on the brains of children and teenagers--one 
of the fastest growing groups of users in the world today.
    Recently, several groups including the Collaborative on EMF 
Research, the EWG, and the European Union have issued reports 
concluding that cell phones cause or greatly increase the risk of brain 
tumors. What is this based on?
    The INTERPHONE study, as Dr. Sadetzki just told us, has not reached 
a clear conclusion. But every single study that is part of INTERPHONE 
and has studied people who used phones heavily for a decade has found 
that where persons have used phones heavily for a decade or longer, 
there is evidence of a significantly increased risk--literally a 
doubled risk of malignant brain tumors.
    The one researcher to have studied young people who began using 
cell phones as teenagers, Prof. Lennart Hardell of Sweden, has found 
that those who started to use cell phones heavily before age 20 have 
four to six times more brain tumors by the time they reach their 30s. 
This is deeply troubling.
    What should we do now?
    Representatives of the industry have recently been quoted as 
saying: ``peer-reviewed scientific evidence has overwhelmingly 
indicated that wireless devices do not pose a public health risk.'' To 
me, the absence of definitive evidence on this issue is not proof there 
is no harm, but a reflection of two things. First, it is hard to 
conduct epidemiological studies on cell phone users for obvious 
reasons, as Dr. Sadetzki has explained. Second, there are powerful 
interests that have kept us from asking and answering important 
questions. We have also seen repeatedly that the chances a study will 
label cell phones safe depends chiefly on who pays for the study. (Lai 
and Roos.)
    What does independent research really show? What do the FDA and ACS 
really say about the matter? On their Web site, the Center for Devices 
and Radiological Health of the U.S. FDA, states:

    ``Available science does not allow us to conclude that mobile 
phones are absolutely safe, or that they are unsafe. However, the 
available scientific evidence does not demonstrate any adverse health 
effects associated with the use of mobile phones.''

    The FDA and FCC jointly state that those who are concerned should 
take simple precautions such as using earpieces and speakerphones, 
while acknowledging that, quote, ``The available scientific evidence 
does not show that any health problems are associated with using 
wireless phones. There is no proof, however, that wireless phones are 
absolutely safe.'' End quote.
    But, the FDA site goes on to say the following:

    ``The scientific evidence does not show a danger to any users of 
cell phones from RF exposure, including children and teenagers. The 
steps adults can take to reduce RF exposure apply to children and 
teenagers as well.
  ``--Reduce the amount of time spent on the cell phone.
  ``--Use speaker mode or a headset to place more distance between the 
        head and the cell phone.
    ``Some groups sponsored by other national governments have advised 
that children be discouraged from using cell phones at all. For 
example, The Stewart Report from the United Kingdom made such a 
recommendation in December 2000. In this report a group of independent 
experts noted that no evidence exists that using a cell phone causes 
brain tumors or other ill effects. Their recommendation to limit cell 
phone use by children was strictly precautionary; it was not based on 
scientific evidence that any health hazard exists.''

    In 2001, Cancer, a review article in the American Cancer Society 
Journal, written by Howard Frumkin and Michael Thun, a senior 
epidemiologist with the American Cancer Society (ACS) in fact took a 
precautionary approach as well. Noting the absence of clear evidence of 
harm and the relatively short period of time that studies had been 
underway, they offered simple advice: ``It is impossible to prove that 
any product or exposure is absolutely safe, especially in the absence 
of very long-term follow-up.'' Accordingly, the following summary from 
the FDA Center for Devices and Radiological Health offers advice to 
people concerned about their risk:

    ``If there is a risk from these products--and at this point we do 
not know that there is--it is probably very small. But if people are 
concerned about avoiding even potential risks, there are simple steps 
they can take to do so. People who must conduct extended conversations 
in their cars every day could switch to a type of mobile phone that 
places more distance between their bodies and the source of the RF, 
since the exposure level drops off dramatically with distance. For 
example, they could switch to: a mobile phone in which the antenna is 
located outside the vehicle, a hand-held phone with a built-in antenna 
connected to a different antenna mounted on the outside of the car or 
built into a separate package, or a headset with a remote antenna to a 
mobile phone carried at the waist. Again the scientific data do not 
demonstrate that mobile phones are harmful. But if people are concerned 
about the RF energy from these products, taking the simple precautions 
outlined above can reduce any possible risk.''

    In other recent public statements, Thun, who is a vice president of 
ACS observed that:

    ``Cellular (cell) phones are a relatively new technology that 
became widely used in the United States only in the 1990s. Although 
they have been studied extensively, we don't yet have information on 
the potential health effects of very long-term use or usage by 
children.''

    The good news is that manufacturers are beginning to incorporate 
this advice into information they provide to consumers. The challenge 
will be to get people to read and act on this information. How many 
people know that the directions for using Blackberries for the new 4G 
wireless devices also note that phones should not be kept on the body 
and that those concerned about children's exposures should take efforts 
to reduce that exposure. Those with pacemakers are urged to keep the 
device at least 20 centimeters, or about 8 inches away from the chest. 
Warnings with the new Blackberry smartphones and iPhones state that the 
phone should be kept .98 inch or 25 millimeters or 5/8 inch or 15 
millimeters respectively away from the body and that failure to do so 
could result in excessive exposure. U.K. advisors have urged caution 
with respect to children.
    Recently a number of scientists have confirmed an observation 
reported by Hungarian and Australian scientists in 2004.
    Regularly keeping a cell phone in the pocket produces defects in 
sperm form and sperm count. Experimental studies have produced similar 
results, yielding sperm with impeded motility and reduced numbers.
    Unfortunately, scientists who have tried to conduct independent 
research in this area have often found themselves under the gun. Cell 
phone research became a kind of third rail for many scientists--touch 
it and you die.
    Dr. Om Gandhi, for years, led studies at the University of Utah 
evaluating emissions from phones for Motorola and all the major cell 
phone companies. As a pioneer in modeling of cell phone absorption into 
the brain, he in 1996 published analyses, which showed that existing 
models did not protect children's brains. No surprise: he lost all his 
industry funding. Now, because he's a tenured professor of a certain 
age, he continues to do the work and has produced further analyses 
showing he's correct. Recently French Telecom and other industry 
supported groups have also confirmed what any mother knows--a child's 
head is much more sensitive thinner, less dense, more fluid, and 
therefore more vulnerable than that of an adult.
    A study by Professors Henry Lai and Singh showed that low levels of 
RF signals could produce strange defects in DNA in 1994. The industry 
response? First, they went to the journal where the paper had been 
accepted and tried to get the paper unaccepted. Then, they hired a PR 
firm to try to discredit the findings. Then, they gave money to other 
researchers in an effort to disprove the findings. When this research 
confirmed their findings that RF could damage DNA, that research was 
not published. The full story on this can be found at http://
www.washington.edu/alumni/columns/march05/wakeupcall01.html and is also 
discussed in my new paperback.
    A similar situation is still being resolved in Vienna, where a 
multi-million dollar, multi-laboratory study of the damaging effect of 
DNA on RF led by Professor Rudigger and Adlkofer of the Medical 
University of Vienna was charged with fraud. These charges became 
headlines around the scientific world. An independent investigation by 
the university has recently reported that the charges of fraud were not 
correct. But, the damaging effect of the charges cannot easily be 
reversed.
    I am fortunate that I worked for Ronald B. Herberman at the 
University of Pittsburgh. In reviewing the evidence provided by the 
Bioinitiative Report and the European Environment Agency last year, he 
recognized this issue for what it is--a major chance to promote 
research while in the meantime preventing harm. The Pittsburgh Advisory 
and his statement on this issue, along with other background documents 
can be found at www.environmentalhealthtrust.org.
    As we have heard today, scientific and policy leaders in Israel, 
France, Finland, Russia, and China have since echoed Pittsburgh's 
precautionary advice.
    I would urge the Senate to consider carefully the case for national 
action. I am encouraged by the fact that the new head of radiological 
and other devices at the FDA has indicated an interest in examining 
this issue.
    My advice at this point is simple--as a number of groups have 
recently urged, cell phones should have warning labels stating: 
Children's brains need special protection; phones should not be kept on 
the body, and should only be used with ear pieces or speakerphones. 
Children should be encouraged to text and not use phones next to their 
heads.
    What about the much needed research? Who should do it and where 
should the money come from? Obviously, the history of cell phones and 
public relations tells us we must make this research independent. 
Creating a cabinet level inter-agency group on cell phone research, 
like that on climate change, seems a good start.
    As to funding, I've got a simple idea that many of my colleagues in 
industry tell me makes sense. Let's put an extra research fee of $1 on 
every cell phone for 3 years and use these funds to support the conduct 
of a major independent research program to address the questions raised 
by this panel and by the National Academy of Sciences in its 2008 
report on the subject.
    Given the widespread and important role that cell phones play in 
our lives today and their invaluable use for many purposes, we can and 
must do better. Our children and grandchildren will thank us if years 
from now if they are using safer devices because we took the step at 
this moment in history to create the solid research program to create 
an improved technology. I am confident that with this hearing a new day 
of open dialogue has begun and I thank the Senators for making this 
possible.

    Senator Harkin. Thank you, Dr. Davis.
    Now we turn to Dr. Naidenko, with the EWG. I might just say 
that we had called this hearing at the suggestion of Senator 
Specter, as I said earlier, before this study came out last 
week. I just wanted to make the record clear on that.
    Please proceed, Ms. Naidenko.
STATEMENT OF OLGA V. NAIDENKO, Ph.D., SENIOR SCIENTIST, 
            ENVIRONMENTAL WORKING GROUP, WASHINGTON, 
            DC.
    Dr. Naidenko. Mr. Chairman and distinguished members of the 
subcommittee: My name is Olga Naidenko and I am a Senior 
Scientist at the EWG, a nonprofit research and advocacy 
organization based in Washington, District of Columbia; Ames, 
Iowa; and Oakland, California.
    I thank the subcommittee for holding this important hearing 
and for the opportunity to testify.
    Last week EWG released the results of a 10-month 
investigation of more than 200 peer-reviewed studies, 
Government advisories, and industry documents on the safety of 
cell phone radiation. We found that the studies published 
during the first two decades of cell phone use produced 
conflicting results and few definitive conclusions on cell 
phone safety. But the latest research, in which scientists, are 
for the first time, able to study people who have used cell 
phones for many years, suggests the potential for serious 
safety issues.
    The state of the science is provocative and troubling and 
more research is essential. We at EWG are still using our cell 
phones, but we also believe that until scientists know much 
more about cell phone radiation it's smart for consumers to buy 
phones with the lowest emissions.
    We are moving to a mobile society. Cell phones, handheld 
devices, are now part of everyday life. As of December 2008, 
U.S. wireless subscribers numbered 270 million, a 30 percent 
jump in 3 years. As the market for new devices has grown, so 
has the urgency that cell phone safety be well understood and 
that cell phone radiation standards be sufficient to protect 
public health.
    EWG advocates that cell phone companies label their 
product's radiation output so that consumers can make informed 
choices at the point of sale and that the Government requires 
this disclosure. Currently most people are given no information 
at all about radiation emissions when they purchase a phone. To 
fill this information void, EWG's research team created an 
interactive online consumer guide to cell phone radiation 
covering more than 1,200 phones. In the 64 hours following the 
publication of our science review and cell phone radiation 
database, 442,000 people accessed our Web site. During those 
same 3 days, our findings were reported in numerous news 
articles and broadcast news. This powerful response from the 
public reflects the consumer's keen interest in the issue of 
cell phone safety.
    Much more research is essential. However, in response to 
the information already available over the potential health 
risks of cell phone radiation, Government agencies in six 
different countries have recommended action to help consumers 
reduce exposures to cell phone radiation, especially for young 
children. For example, in 2005 the United Kingdom Department of 
Health stated in a consumer advisory, quote: ``UK chief medical 
officers strongly advise that where children and young people 
do use mobile phones, they should be encouraged to: use mobile 
phones for essential purposes only; keep all calls short--
talking for long periods prolongs exposure and should be 
discouraged.''
    In contrast, the FDA and the FCC have all but ignored 
evidence that long-term cell phone use may be risky. The FCC 
set cell phone radiation standards 17 years ago, when few 
people used cell phones. The standards failed to provide an 
adequate margin of safety for cell phone radiation exposure and 
do not account for risks to children.
    Until the science on cell phone risk is settled, EWG 
recommends a number of simple actions consumers can take to 
reduce exposures to cell phone radiation, including: use a low-
radiation phone; use a head set or speaker phone; choose 
texting more than talking; and limit children's cell phone use.

                           PREPARED STATEMENT

    In conclusion, EWG strongly believes that the Government 
should support additional research into this important health 
question and that the public has a right to know what levels of 
radiation they may be exposed to, what may be the potential 
risks, and what precautionary measures consumers can take to 
protect themselves and their families from any adverse health 
effects of cell phone radiation.
    Thank you for your time. I welcome the opportunity to 
answer any questions you may have.
    [The statement follows:]
                 Prepared Statement of Olga V. Naidenko
    Mr. Chairman and distinguished members of the subcommittee: My name 
is Olga V. Naidenko, and I am a senior scientist at Environmental 
Working Group (EWG), a nonprofit research and advocacy organization 
based in Washington, DC; Ames, Iowa; and Oakland, California. I thank 
the members of the subcommittee for holding this important hearing and 
for the opportunity to testify.
    Last week, EWG released the results of a 10-month investigation of 
more than 200 peer-reviewed studies, Government advisories, and 
industry documents on the safety of cell phone radiation. We found that 
the studies amassed during the first two decades of cell phone use 
produced conflicting results and few definitive conclusions on cell 
phone safety. But the latest research, in which scientists are for the 
first time able to study people who have used cell phones for many 
years, suggests the potential for serious safety issues.
    Studies published over the past several years find significantly 
higher risks for brain and salivary gland tumors among people using 
cell phones for 10 years or longer. The state of the science is 
provocative and troubling, and more research is essential. We at EWG 
are still using our cell phones, but we also believe that until 
scientists know much more about cell phone radiation, it's smart for 
consumers to buy phones with the lowest emissions.
    As of December 2008, U.S. wireless subscribers numbered 270.3 
million--87 percent of Americans--a 30 percent jump in 3 years. Some 60 
percent of the global population--4 billion people--subscribe to 
wireless services. As the market for new devices has grown, so has the 
urgency that cell phone safety be well understood, and that cell phone 
radiation standards be sufficient to protect public health.
    In this testimony we highlight five key areas of concern:
  --Consumers have a right to know the level of radiation their phones 
        emit;
  --The latest science points to potential risks to children's health;
  --Federal standards for cell phone radiation need to be modernized;
  --What consumers can do to reduce exposures to cell phone radiation; 
        and
  --EWG's recommendations to the Government, industry, and the public.
consumers have a right to know the level of radiation their phones emit
    EWG advocates that cell phone companies label their products' 
radiation output so that consumers can make informed choices at the 
point of sale, and that the Government require this disclosure. 
Currently, most people are given no information at all about radiation 
emissions when they purchase a phone.
    To fill this information void, EWG's research team created a user-
friendly, interactive online guide to cell phone emissions, covering 
more than 1,200 phones currently on the market. Consumers can use this 
free online database to make informed decisions about which cell phones 
to buy. The EWG guide uses easy-to-read graphics to illustrate each 
phone's radiofrequency emissions, enabling consumers to make quick 
comparisons of radiation output of various wireless devices.
    In the 64 hours following the publication of our science review and 
cell phone radiation database, 442,000 people accessed these materials 
on our Web site, collectively viewing 1.4 million online pages. During 
those same 3 days our findings were reported in 100 news articles and 
in national and local broadcast news, including the New York Times, NBC 
Nightly News, WebMD, and USA Today. This powerful response from the 
public and from news media outlets reflects consumers' keen interest in 
the issue of cell phone safety. Clearly, people are eager to know if 
cell phones are safe and how they can protect themselves and their 
families from potential adverse effects of excessive exposure to cell 
phone radiation.
   the latest science points to potential risks to children's health
    Prior to 2003, studies of cancer risk and cell phone use produced 
conflicting results. The Food and Drug Administration (FDA) told 
consumers that scientists had found no harmful health effects from 
exposure to cell phone emissions. But FDA's assurances were based on 
studies of people who had used cell phones for just 3 years, on 
average, not long enough to develop cancer. At that time, studies had 
not addressed the risks of longer-term cell phone radiation exposures. 
The research gap is closing. Recent studies find significantly higher 
risks for brain and salivary gland tumors among people using cell 
phones for 10 years or longer. The state of the science is provocative 
and troubling, especially for the health of children. Among recent 
findings are the following:
  --A joint study by researchers in Denmark, Finland, Norway, Sweden, 
        and the United Kingdom found that people who had used cell 
        phones for more than 10 years had a significantly increased 
        risk of developing glioma, a usually malignant brain tumor, on 
        the side of the head they had favored for cell phone 
        conversations.
  --French and German scientists reported an increased risk of glioma 
        for long-term cell phone users. Analysis of all published cell 
        phone-brain tumor studies found that people who had used a cell 
        phone for 10 or more years, the overall risk for developing a 
        glioma on the cell phone side of the head increased by 90 
        percent.
  --Cell phone use for 10 years and longer has been also associated 
        with significantly increased risk of acoustic neuroma, a type 
        of benign brain tumor, on the primary side of cell phone use. 
        An extensive review of published studies of acoustic neuroma 
        found that long-term cell phone users had a 60 percent greater 
        risk of being diagnosed with the disease.
  --A study from Israel reported an association between frequent and 
        prolonged mobile phone use and parotid (salivary) gland tumors 
        (Sadetzki 2008). Scientists analyzing data from Sweden and 
        Denmark combined found that people who had used cell phones for 
        at least 10 years ran an increased risk of benign parotid gland 
        tumors.
    The National Research Council (NRC) has observed that ``with the 
rapid advances in technologies and communications utilizing [radiation 
in the range of cell phone frequencies], children are increasingly 
exposed . . . at earlier ages (starting at age 6 or before)''. Research 
by France Telecom scientists showed that under standard conditions of 
use, twice as much cell phone radiation would penetrate a child's 
thinner, softer skull than an adult's. Children will be exposed to cell 
phone radiation for more years and therefore in greater total amounts 
than the current generation of adults.
    Children are likely to be more susceptible than adults to effects 
from cell phone radiation, since the brain of a child is still 
developing and its nervous tissues absorb a greater portion of incoming 
radiation compared to that of an adult. Much more research is 
essential. However, in response to the information already available 
over the potential health risks of cell phone emissions, government 
agencies in Germany, Switzerland, Israel, United Kingdom, France, 
Finland, and the European Parliament have recommended actions to help 
consumers reduce exposures to cell phone radiation, especially for 
young children. Among warnings issued by government agencies are the 
following:
  --United Kingdom.--United Kingdom Department of Health: ``UK Chief 
        Medical Officers strongly advise that where children and young 
        people do use mobile phones, they should be encouraged to: use 
        mobile phones for essential purposes only; keep all calls 
        short--talking for long periods prolongs exposure and should be 
        discouraged.''
  --Canada.--City of Toronto Department of Public Health: ``Today's 
        children have started to use cell phones at a younger age, 
        therefore their lifetime exposure to cell phone RFs will likely 
        be greater. As a result, the chances that a child could develop 
        harmful health effects from using a cell phone for a long time 
        may be greater. Toronto Public Health is recommending that 
        children, especially pre-adolescent children, use landlines 
        whenever possible, keeping the use of cell phones for essential 
        purposes only, limiting the length of cell phone calls and 
        using headsets or hands-free options, whenever possible.''
  --Finland.--Finnish Radiation and Nuclear Safety Authority: ``It 
        would be good to restrict children's use of mobile phones. 
        Precaution is recommended for children as all of the effects 
        are not known . . . Parents are recommended to guide their 
        children to use a hands-free that minimizes the exposure of 
        head significantly. When using a hands-free it is recommended 
        to keep the mobile phone at least a few centimetres away from 
        the body.''
    In contrast, the two U.S. Federal agencies that regulate cell 
phones, the FDA and the Federal Communications Commission (FCC), have 
all but ignored evidence that long-term cell phone use may be risky.
    federal standards for cell phone radiation need to be modernized
    The FCC set cell phone radiation standards 17 years ago, when few 
people used cell phones. These standards fail to provide an adequate 
margin of safety for cell phone radiation exposure and do not account 
for risks to children. The FCC standards closely follow the 1992 
recommendations of the Institute of Electrical and Electronics 
Engineers. The FCC adopted IEEE's proposal to allow 20 times more 
radiation to the head than the average amount allowed for the whole 
body, even though the brain may well be one of the most sensitive parts 
of human body with respect to RF radiation and should have more 
protection. EWG's conclusion: current U.S. cell phone radiation 
standards are outdated and may not be sufficiently protective. EWG 
urges the FDA and the FCC to upgrade its standards to take account of 
the newest scientific evidence and also increasing cell phone use by 
children.
   what consumers can do to reduce exposures to cell phone radiation
    EWG recommends a number of simple actions consumers can take to 
reduce exposures to cell phone radiation. We recommend these simple 
precautionary measures until the science on cell phone risks is 
settled, and until the Federal Government modernizes current radiation 
limits to reflect the latest research.
  --Use a Low-radiation Phone.--Consumers can find radiation emissions 
        for their current phone on EWG's database (www.ewg.org/
        cellphone-radiation), in their user's manual, or by contacting 
        the manufacturer. EWG's database lists alternate, low-radiation 
        phones, allowing people to consider purchasing a phone that 
        emits the lowest radiation possible and still meets their 
        needs.
  --Use a Headset or Speakers.--Headsets emit much less radiation than 
        phones. Experts are split on whether wireless or wired is 
        safer. Some wireless headsets emit continuous, low-level 
        radiation, so EWG advises removing the headset from the ear 
        between calls. Using a phone in speaker mode also reduces 
        radiation to the head.
  --Listen More, Talk Less.--Cell phones emit radiation to transmit 
        voice or text messages, but not to receive messages. Listening 
        more and talking less reduces exposures.
  --Hold Phone Away From the Body.--Holding the phone away from the 
        torso when talking (while using the headset or speaker) reduces 
        radiation exposures. EWG advises against holding the phone 
        against the ear, in a pocket, or on the belt where soft body 
        tissues absorb radiation.
  --Choose Texting More Than Talking.--Phones use less power (less 
        radiation) to send text than voice. And unlike speaking with 
        the phone at the ear, texting keeps radiation away from the 
        head.
  --Stay off the Phone if the Signal is Poor. Fewer signal bars on the 
        phone means that it emits more radiation to get the signal to 
        the tower. EWG recommends that people make and take calls when 
        the phone has a strong signal.
  --Limit Children's Phone Use.--Young children's brains absorb twice 
        the cell phone radiation as an adult's. EWG joins health 
        agencies in at least six countries in recommending limits for 
        children's phone use, such as for emergency situations only.
  --Skip the ``Radiation Shield''.--Radiation shields such as antenna 
        caps or keypad covers reduce the connection quality and force 
        the phone to transmit at a higher power with higher radiation.
                            recommendations
    The Government should invest in additional research on the health 
effects of cell phone radiation, with special emphasis on children and 
teens.
    The Government should require industry to make cell phone radiation 
level information available at the point of sale, so consumers can make 
informed decisions about the phones they buy.
    Given the troubling questions raised by the research thus far, the 
cell phone industry should not wait for Government action, but instead, 
offer consumers phones that operate with the least possible radiation, 
and should offer radiation information at the point of sale.
    In the meanwhile, cell phone users can protect themselves and their 
families by buying low-radiation phones. Cell phone users can also 
reduce radiation exposures by using their phone in speaker mode or with 
a headset.
    In conclusion, EWG strongly believes that the Government should 
support additional research into this important health question, and 
that the public has the right to know what levels of radiation they may 
be exposed to, what may be the potential risks, and what precautionary 
measures they can take to protect themselves and their families from 
any adverse health effects of cell phone radiation.
    Thank you for your time. I welcome the opportunity to answer any 
questions you may have.

    Senator Harkin. Thank you very much, Dr. Naidenko.
    I'll just start the first round of questioning here. You 
can start me at 5. Thank you.
    Dr. Naidenko, I was looking at the summary of your working 
group's study last week. You had a tracking tool that allows 
visitors to check radiation levels for 1,200 models of cell 
phones and smartphones. Is that list available? Can I look and 
see what models would be lowest and what would be highest?
    Dr. Naidenko. Thank you for that question, Senator. Yes, 
the full database is available for consumers, for anybody, on 
the EWG Web site--www.ewg.org/cellphone-radiation. It's 
searchable. Consumers can look for a specific model, look for 
the phones with highest radiation output, lowest radiation 
output. So it is a tool that has had immense success over the 
4, 5 days since it has been released.
    Senator Harkin. You also say your finding was that texting 
trumps talking. That was your first tip right here. But texting 
costs money. It costs more money than talking on the phone.
    [Phone rings.]
    Senator Harkin. Right on cue.
    So you would say still to text rather than talk, but I just 
wanted to point out that texting can be very expensive.
    It seems to me that you have these studies and I'm getting 
some curious information here today, Dr. Sadetzki and Dr. 
Leszczynski, there are some studies that indicate that there 
are findings that show that some people who have been exposed 
for long periods of time do in fact have higher levels of 
certain kinds of brain or head cancers. Is that a fair 
statement I just made, that there are studies that show that 
people who have had longer-term usage of cell phones compared 
to another group have higher incidents of either brain or head 
type of cancers? No? Yes?
    Yes, Dr. Sadetzki.
    Dr. Sadetzki. Yes, I think that the statement is correct. I 
think that when you look at the data you see that indeed in the 
first 10 years nothing happens. However, when you look at all 
the individual studies that are out there, you do see something 
after 10 years with ipsilateral use, meaning, as I said, for 
holding the phone on the same side where the tumor occurred. 
Our study also showed increased risk for people who are in the 
high category of use.
    However, what we need to understand is that there are 
standards for research. These studies are based on very few 
users, because very few users have been using the phone for 
more than 10 years. Therefore--you know, I have two hats, 
public health, as a public health practitioner, and as a 
researcher. Now, obviously for research these observations are 
not enough. There is a discussion whether these observations 
are true or whether they are methodological--stem from 
methodological problems.
    So as a researcher, I do say we have a hint that something 
is going on. However, we need more research. But as a public 
health practitioner, I am saying: Wait a minute; this is a red 
light and we must do something, especially since this something 
is very easy to implement, because all we need to do is to put 
the cell phones away from our body.
    Senator Harkin. Dr. Davis, you said in your testimony, 
again following up on this, you said--you cite Dr. Sadetzki's 
study and you say that INTERPHONE has studied people who have 
used phones heavily for a decade and has found that where 
persons have used phones heavily for a decade or longer, there 
is evidence of significantly increased risk, nearly a doubled 
risk of malignant brain tumors. Is that a correct 
interpretation?
    Dr. Sadetzki. I cannot comment on the overall INTERPHONE 
results, because the overall INTERPHONE results are now under 
review. They are not published yet. What you said is correct 
when you look at the individual studies published from the 
INTERPHONE results, not the overall results.
    Senator Harkin. But again, those are based on----
    Dr. Sadetzki. Those are based on people who are long-term 
users. The term ``long-term users'' is also not very correct, 
because we're talking about people who talked for more than 10 
years.
    Senator Harkin. Dr. Davis, you said that the one researcher 
to have studied young people who began using cell phones as 
teenagers, Professor Lennart Hardell of Sweden, has found that 
those who started to use cell phones heavily before age 20 have 
four to six times more brain tumors by the time they reach 
their 30s.
    Can we get some documentation on that study?
    Dr. Davis. Absolutely. In fact, tomorrow at our 
international conference that's being held just a few blocks 
away--I invite your staff to attend--at 8 o'clock in the 
morning Lennart Hardell will be speaking to us by Skype from 
Sweden, where he will present not only that result, but 
additional analyses, unfortunately, of new cases.
    You have to understand that in the Scandinavian countries 
and in Israel they have been using cell phones a lot longer and 
a lot more heavily than we have. So unfortunately they have 
some of those data.
    I should also add that one of the most troubling findings 
is a series of studies that have been produced in the United 
States--this is one study that was done opportunistically at a 
fertility clinic--and in Hungary and other countries, finding 
reduced sperm count in young men who keep their phones in their 
pockets, which unfortunately many young men do, even though if 
you read the advice that's on the iPhone and the Blackberry it 
says keep the phone 1 inch away from your body, actually .98 
inches in case you want to be precise.
    But the reality is very few people do that, and lots of 
young men keep their phones in their pockets, particularly in 
the summertime. The Cleveland Clinic published a peer-reviewed 
study showing reduced sperm count, and that was not the only 
such study, but only the most recent one.
    Senator Harkin. Let me ask the question I asked Dr. Bucher. 
I've got my Blackberry, which we use all the time. Again, just 
individually, I'll go down the line, Dr. Leszczynski and on 
down the line: If you were to use a Blackberry, like I do, and 
you were calling people, if you had the option of putting it up 
to your ear like this and talking or you could use an earphone 
like this, with a little speaker down here, which would you do?
    Dr. Leszczynski. I personally and also my institution is 
advising to use earpiece instead of keeping cell phone to your 
head. It is a very simple way or a cheap way to reduce exposure 
of head to cell phone radiation. So I would use earpiece.
    Senator Harkin. Dr. Sadetzki, any difference?
    Dr. Sadetzki. Same thing.
    Senator Harkin. Dr. Erdreich.
    Dr. Erdreich. I recognize that use of an earphone would 
decrease a person's exposure to RF. I don't think--I really 
can't agree that it reduces the risk because I don't think the 
total picture of all the studies taken together, with all their 
complications, I don't think this assessment suggests that 
there is a risk from using the cell phone.
    Senator Harkin. Dr. Davis.
    Dr. Davis. I brought my earpiece when you were talking. But 
I want to go on to read what the FDA and FCC sites say, since 
Dr. Erdreich suggested to the contrary. The site as of 
yesterday says:

    ``The scientific evidence does not show a danger to any users of 
cell phones from RF exposure, including children and teenagers. The 
steps adults can take to reduce RF exposure apply to children and 
teenagers as well.
  --Reduce the amount of time spent on the cell phone.
  --Use speaker mode or a headset to place more distance between the 
        head and the cell phone.''

    I'm continuing to read from their site:

    ``Some groups, sponsored by other national governments have 
advised that children be discouraged from using cell phones at 
all.''

    Then it goes on to say:

    ``For example, in 2000 in the U.K., the Stewart report 
advised this. Their recommendation to limit cell phone use by 
children was strictly precautionary. It was not based on 
scientific evidence that any health risk exists.''

    Close quote, from the FDA Web site. It's in my testimony 
submitted for the record.
    The question we have to ask is, What is evidence? Do we 
insist that the only evidence we will accept is when we have 
enough sick or dead children? I hope that it is's not the case 
and that we've made some progress as a society in order to take 
the kinds of precautions that our colleagues in Israel and 
Finland and many other nations are taking today.
    I especially want to thank my colleague Dr. David Servan-
Schreiber, who is himself a scientist, a physician, a 
researcher, and a brain tumor survivor. So his interest in this 
issue is quite intense and personal.
    Senator Harkin. Thank you very much.
    Dr. Naidenko? Dr. Naidenko, the same question: Which would 
you do?
    Dr. Naidenko. Thank you for that question, Senator. Based 
on our very extensive science review, EWG strongly recommends 
they use a head set, such as the one that you hold in your 
hand, and I think I have a very similar one.
    Senator Harkin. Any difference between this and Bluetooth?
    Dr. Naidenko. The Bluetooth is of course itself emitting RF 
radiation. So when a cell phone is here on the table next to 
me, the Bluetooth will be transmitting from the ear to the cell 
phone. The distance is shorter, so the amount of radiation that 
it would put out would be smaller than a cell phone would put 
out to a tower way out there. Based on our science review, we 
found that experts are split. Of course, our distinguished 
colleagues in Israel are recommending you get a wired earpiece, 
such as the one that you have. Our colleagues in Switzerland do 
feel that Bluetooth is a good choice.
    Then we have reviewed Government Web sites for many 
European countries. We have found that some recommend both, 
some recommend just one. We at EWG feel that either headset 
would be better than holding the phone to the ear.
    Senator Harkin. My 7 minutes are up, but anything on 
Bluetooth? Dr. Davis? We'll go back down this way.
    Dr. Davis. Yes. In fact, if you are using a Bluetooth and 
you have the phone away from your body and you turn it off when 
you're not using it, it does give you much less exposure. But 
the problem is that most people who use a Bluetooth have the 
phone on their hip, right at their bone marrow, and have it on 
all the time. That is what we are concerned about.
    Senator Harkin. Dr. Erdreich, the difference between this 
and Bluetooth?
    Dr. Erdreich. No comment on Bluetooth.
    Senator Harkin. No comment.
    Dr. Sadetzki.
    Dr. Sadetzki. Usually it's true that the Bluetooth is 
better than the cell phone itself, but there are situations in 
which the Bluetooth involves higher emissions than the cell 
phone itself, such as when the reception is really good, 
because the Bluetooth is always constant exposure, while the 
cell phone adapts with the base station all the time. Besides, 
in Israel we worry that when people wear this Bluetooth it is 
so comfortable it becomes part of your body, that they will 
just talk more and more, and therefore the overall exposure 
will be higher.
    Senator Harkin. Interesting.
    And Dr. Leszczynski?
    Dr. Leszczynski. Yes. Of course, Bluetooth is very 
comfortable because you don't have those wires all the time 
hanging. However, Bluetooth is emitting radiation continuously 
and we don't have the slightest idea what this kind of 
continuous exposure of the area of ear can achieve in due time. 
Therefore it is much better to use this earpiece.
    On the other hand, also it's necessary to remember that, as 
Dr. Davis mentioned, when people have Bluetooth in their ear 
they usually keep cell phone somewhere else in the pocket, and 
then this area next to cell phone is being exposed, especially 
if in breast pocket or pocket in trousers. Different areas will 
be then exposed, not on the head, but somewhere else the 
radiation goes.
    Senator Harkin. Thank you very, very much.
    My time has expired. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Dr. Davis, what is the strongest evidence you know about an 
alleged causal connection between use of the cell phone and a 
brain tumor?
    Dr. Davis. Well, the strongest evidence does not come from 
human studies, and that's the problem. When we're looking at 
public health information, we have to rely on experimental 
evidence such as that developed by the NIEHS in this country 
and researchers in Europe in the Reflex Project and others. If 
we look at experimental studies, we have very strong evidence. 
If we look at human studies, as Dr. Erdreich has commented----
    Senator Specter. Tell us about the experimental studies.
    Dr. Davis. Well, as a matter of fact, here we go. This is a 
model of the brain and, while the precise information in here 
has been debated, this is approximately the absorption that 
gets into the head of a 5-year-old, and this is about the 
absorption here on the blue line that gets in the head of an 
adult.
    Senator Specter. That establishes that there is more 
absorption.
    Dr. Davis. Right.
    Senator Specter. Wait a minute. Just answer the question. 
That establishes more absorption from a 5-year-old, but that's 
not my question. My question is what is the strongest evidence 
you have that exposure to a cell phone causes cancer?
    Dr. Davis. All right. The process of cancer arises from 
many different insults to our DNA, the basic building blocks of 
our genetic material inside ourselves. Researchers have shown 
that RF signals at exactly the same wavelength of those of the 
new phones can cause heat shock proteins. Those are proteins 
that the body forms in response to stress, and those have been 
shown----
    Senator Specter. Wait a minute. We don't have time for a 
treatise. We have 5 minutes.
    Dr. Davis. Okay, I think I can do it in 5 minutes or less.
    Senator Specter. No, no. Just answer my question. What is 
the strongest evidence you have that exposure to a cell phone 
causes cancer?
    Dr. Davis. The work that's been done on the common assay 
that shows double strand breaks in DNA after exposure to cell 
phone radiation is very strong evidence experimentally. If we 
tie that with the human studies of Dr. Sadetzki and others that 
have looked at people who have 10 years of exposure or more, we 
put them together and we have strong evidence.
    Senator Specter. Well, Dr. Sadetzki has testified that you 
see something after 10 years, but she says that there are so 
few involved that she can't draw a scientific conclusion. Is 
that an accurate statement, Dr. Sadetzki?
    Dr. Sadetzki. Regarding the 10 years, yes. But first of all 
I would like to say that I'm not sure that there is an 
association. I cannot be sure based on the current 
epidemiological data. But what worried me was that in my study 
I saw consistent positive results and they always appeared 
where there is biological plausibility. They did not appear in 
this group or in that group. They appeared after more than 10 
years, they appeared on the same side where the phone was held, 
they appeared for the heavy users, and they appeared in rural 
areas compared to urban areas, and this also has biological 
plausibility because where antennas are more dense then the 
exposure is lower.
    So the act that all of these indications appeared where 
they should have appeared told me that it was a really red 
light. But as a scientist, this is not enough, definitely not 
for causality. But it's an indication that, according to my 
judgment, is enough in order to advise the precautionary 
principle.
    Senator Specter. As a scientist, it's not enough to 
conclude a causal connection, is that right?
    Dr. Sadetzki. Right. For causal association, the criteria 
are much more strict.
    Senator Specter. Dr. Erdreich, you've testified that the 
evidence does not demonstrate a connection between cell phone 
and cancer. Now, it is much harder to prove a negative, but 
what would your answer be, does the evidence demonstrate that 
there is no connection between a cell phone and cancer?
    Dr. Erdreich. You've made an important observation. I think 
the evidence----
    Senator Specter. I haven't made an observation. I've asked 
a question. I'm not having much luck with answers, but that's 
my question.
    Dr. Erdreich. I think the strongest evidence is not any 
single study. The strongest evidence is that there is a body of 
research where we've looked at whether certain studies that 
showed anything can be replicated, whether we've looked at 
consistency across studies, and where there have been more than 
40 animal studies that used different measures to assess the 
long-term risks. The evidence doesn't come from any single 
study. The evidence comes from a careful review, looking at the 
strengths and weaknesses together, and putting the data 
together.
    This is supported by the fact that the INTERPHONE studies, 
as Dr. Sadetzki suggests, states, taken together are kind of 
strongly not showing an association between use and cancer. So 
the answer----
    Senator Specter. Do not strongly suggest a showing between 
the use and cancer?
    Dr. Erdreich. It doesn't show.
    Senator Specter. But that's not a demonstration that there 
is no connection.
    Dr. Erdreich. Exactly. What's important is that in the 
background context of what we know about the nature of the 
signal, the strength of the signal, how it interacts with 
cells. There's been research going on with this for more than 
50 years, although the research in the last 20 years of course 
used improved methods and is more definitive.
    Senator Specter. I was once involved at a hearing which had 
a similar question. The question was is there evidence that 
there was no conspiracy on the assassination of President 
Kennedy. You don't see the connection? Proof of a negative is 
very, very different from proof of a positive.
    Dr. Erdreich. Exactly.
    Senator Specter. And when you boil it all down, what I hear 
is not a whole lot of disagreement in this panel.
    You, Dr. Erdreich, say that there is so little question, in 
fact there's no issue of risk at all, that you wouldn't take 
any precaution. I find that----
    Dr. Erdreich. That's----
    Senator Specter. Well, wait a minute. I'm not finished. 
When I've finished and give you a question, I'll pause.
    But where you end up with all the verbiage, you do not say 
that the evidence demonstrates there is no connection. Isn't 
that a fair statement of your testimony?
    Dr. Erdreich. It is a--part of that is a fair statement.
    Senator Specter. Which part is it?
    Dr. Erdreich. The part that I said there's absolutely no 
risk whatsoever.
    Senator Specter. That wasn't part of my question. That was 
an observation before.
    Dr. Erdreich. Your statement that it's very hard to prove a 
negative is really on target.
    Senator Specter. Let's get back to my question. Isn't a 
fair summary of your testimony that there is no--the evidence 
does not demonstrate the absence of any connection between 
exposure and cancer?
    Dr. Erdreich. The evidence does not--excuse me, I have to 
take just the liberty of rephrasing.
    Senator Specter. No, no. I'll do that.
    Dr. Erdreich. Please.
    Senator Specter. The evidence does not demonstrate that 
there is no connection between the use of a cell phone and 
cancer?
    Dr. Erdreich. You had said the evidence does not 
demonstrate that there's no connection. Is that what you meant 
to say? I'm sorry.
    Senator Specter. I'll repeat it. A fair statement of your 
statement is that the evidence does not demonstrate that there 
is no connection between the use of a cell phone and cancer?
    Dr. Erdreich. The scientific evidence could never 
demonstrate a total no-connection.
    Senator Specter. Then I take your answer to be: Correct.
    Well, let me tell you where I come out, because this 
hearing has run very long, but it's been I think very 
worthwhile. What comes through to me is that we just don't know 
what the answer is. Dr. Sadetzki raises a lot of red flags, but 
she says: Well, it's not whether we use cell phones, but how we 
use them. She's not advocating not using cell phones. Dr. 
Davis, who drew almost as much applause as Senator Harkin, made 
the comment that she's not alarmed, but she's concerned.
    The issue of the precautions I think comes through to me, 
with the exception of Dr. Erdreich's testimony, that 
precautions are worth taking, certainly more worth taking than 
the precautions I undertake in not eating sugar or white flour 
out of concern for feeding into cancer; and that precautions 
are not a bad idea. They may not be a good idea, but they're 
not a bad idea.
    The issue of children is something we ought to look at a 
little more closely because of the sensitivity of that issue. 
We have a duty to do more about protecting children.
    The question I think boils down to what additional studies 
are necessary, because nobody knows, and the question as to 
whether the people who sell cell phones ought to be undertaking 
more studies. That's a harder question. What Senator Harkin and 
I can have some influence on is the appropriations process and 
to some extent suggesting just what ought to be done. Whether 
there's enough of a risk here to prompt telephone companies who 
provide cell phones to people, whoever does that, is another 
question, and my recommendation would be that they study the 
testimony here very carefully and that more is to follow.
    One final question, Dr. Davis. Does your invitation to 
appear at your hearing at 8 a.m. tomorrow morning to hear this 
fellow from overseas extend to everyone?
    Dr. Davis. Absolutely. We will have it available on the 
Web. People will have to come and register by 7:30 a.m. if they 
want to be in by 8 a.m.
    Senator Specter. So if it's on the Web we can sleep in?
    Dr. Davis. Yes.
    Senator Specter. Thank you very much, distinguished panel.
    Dr. Davis. Yes.
    Senator Specter. Thank you, Mr. Chairman.
    Dr. Davis. Thank you.
    Senator Harkin. Thank you, Senator Specter.
    Let me follow up on another thing. First of all, I know 
that we don't have jurisdiction over the FDA here or the FCC.
    Senator Specter. When has that stopped you, Senator Harkin?
    Senator Harkin. What did you say?
    Senator Specter. I said, when has that stopped you, Senator 
Harkin?
    Senator Harkin. Well, you didn't hear my follow-up. Because 
of my new chairmanship on another subcommittee, I do have 
jurisdiction over the FDA.
    But what I wanted to follow up with was a question that I 
will pursue beyond this panel with my friends at NIH. That is 
this. Dr. Erdreich stated, and I made note of this because it's 
something that I have wondered about for a long time, that RF 
energy is not radiation in the same sense as used for high 
frequency X-rays because the energy of RF is so much lower and 
is unable to change the DNA of cells.
    Do you have any definitive proof that this RF energy is 
unable to change the DNA of cells? Now, Dr. Davis said a study 
by Professors Henry Lai and Singh showed that low levels of RF 
signals could produce strange defects in DNA in 1994. So I've 
got two different things here and, as I said, I will pursue 
this beyond this panel with NIH to see if we have any 
definitive answer to that: Is DNA harmed by low level RF 
frequency?
    Did you have any further views on that, Dr. Erdreich?
    Dr. Erdreich. This part of the spectrum is known as 
nonionizing radiation because it is not known to cause those 
changes that we've talked about. There has been mentioned a 
study. It is not the only study, and the agencies that I've 
been involved with and that I've read about, that I've reviewed 
the research, have considered all of the studies on this 
question and they have not concluded that it's been proven to 
affect the DNA of cells.
    The second part is that the stronger evidence--the 
strongest evidence you can get is from humans, but there are 
difficulties in epidemiology studies and in whole animals. Most 
agencies and authorities that do evaluate health risk think 
that these studies themselves are important, but it's quite a 
stretch to say that what happens in cells can happen in human 
beings or in animals.
    Senator Harkin. Dr. Sadetzki, you have a view on this? And 
Leszczynski wants to weigh in on this. Yes?
    Dr. Sadetzki. I don't want to get into the discussion, do 
we have a mechanism or not, do we first need to prove the 
epidemiology and then the mechanism or the other way around. I 
just wanted to mention very briefly that extremely low 
frequency (ELF), which is even--has even less energy, was 
determined by the International Association for Cancer 
Research, as a possible carcinogen in 2006.
    Senator Harkin. What kind of RF frequency?
    Dr. Sadetzki. ELF. Oh, I'm sorry. The IACR is the 
association of--it's a body of the WHO----
    Senator Harkin. Yes.
    Dr. Sadetzki [continuing]. Which classifies carcinogens. 
And they have different levels of carcinogens, starting from 
definite carcinogens, such as smoking or ionizing radiation, 
and ending by probably not a carcinogen. So extremely low 
frequency, which is also in the spectrum of low energy, was 
determined by this organization in June 2006 as a possible 
carcinogen.
    Senator Harkin. Possible?
    Dr. Sadetzki. Yes.
    Senator Harkin. Dr. Leszczynski, did you have something you 
wanted to say about this?
    Dr. Leszczynski. Yes. We don't have precise knowledge 
whether DNA is damaged by mobile phone radiation. There can be 
two ways how mobile phone radiation could affect cells that we 
observe damaged DNA. Either it will be damaged by radiation 
itself or the radiation could interfere with the process of 
repair of DNA in cells. In cells normally, all the time DNA 
damage occurs spontaneously, and this radiation could either 
interfere with this process of repair, meaning the 
spontaneously damaged fragments of DNA would not be repaired, 
or it could damage DNA.
    However, as was mentioned earlier, it doesn't have enough 
energy to directly damage DNA. However, there are indications 
from some studies that mobile phone radiation can induce 
production in cells of special molecules which are very 
chemically active, called free radicals, and those molecules 
could indirectly damage DNA.
    So we have those two options for mechanism. Right now we 
don't know yet which one of them is the correct one.
    As was mentioned earlier, human evidence is the most 
important, most valuable for us. We cannot get this 
information, for example, on DNA damage from epidemiological 
studies. However, that's why I was suggesting a new direction 
in research, namely making molecular level experiments in human 
volunteers. This is possible. It's possible to expose, for 
example, small areas of skin of people to mobile phone 
radiation, take a sample of the skin, for example, for DNA 
damage. We have done these kinds of experiments. We were 
looking not at DNA; we were looking on behavior of proteins in 
human skin. But it is feasible. It is possible to do and it is 
also permitted by ethical parameters of experimentation.
    Senator Harkin. Dr. Naidenko, you and Dr. Sadetzki both had 
recommendations for cell phone use. I was trying to get through 
all of these. You recommended, Dr. Naidenko, holding the phone 
away from the body. We've already gone over the earpiece bit.
    Dr. Sadetzki, you said the same thing: a speaker phone or 
hands-free phone, keeping it away from the body.
    Dr. Davis, you said that a cell phone should not be kept 
any closer than an inch to your body? Is that what you said? I 
don't know--where does that come from?
    Dr. Davis. That actually comes from the Blackberry manual, 
as well as from the iPhone manual. If you read the manuals, 
which almost none of us does, that is what they say. So by 
calling for warning labels as I am, I am simply calling to 
codify what the industry is currently telling us about cell 
phones.
    I would also add that when I was privileged to work with 
Dr. Ronald Herberman at the University of Pittsburgh Cancer 
Institute, he looked at the evidence on this issue as one of 
the world's most distinguished cancer biologists and he 
concluded that it was appropriate to warn the staff to take 
these simple precautions, the same precautions that Israel is 
recommending, the same precautions that Finland, Denmark, 
Norway, and Sweden have recommended.
    Senator Harkin. Let's face it. Us men--now, my wife has a 
Blackberry; she keeps it in her purse. Fine. We all have these 
holsters, right? We all have these. We put them on our belts. 
Are you telling me that I should not wear a Blackberry that 
close?
    Dr. Davis. Well, actually the holster may give you enough 
distance. That's what Blackberry says. I mean, an inch--take a 
look at it. An inch, you get some distance there. That's why 
they recommend that you use their holster. But the reality is 
we don't know, and as scientists it really shouldn't be my job 
to tell you what--
    Senator Harkin. That's not an inch. I don't have an inch 
between my holster and----
    Dr. Davis. They recommend their holster. I guess this is a 
question that we ought to ask the appropriate Government 
agencies and the private sector to resolve. Dr. Servan-
Schreiber is working now with senior French officials in the 
government as well as in the telecom industry, because they are 
working in the telecom industry, in France at least, to make 
the kinds of changes which they think are appropriate. I hope 
that this hearing will lead to a new day of cooperation, 
because we need the cooperation of industry to solve this 
problem. We really do.
    Senator Harkin. Also, my last thing is that cell phone 
technology is changing almost every day. Now, when I first 
started out a few years ago I had a cell phone. Now you have 
Blackberries. Now you do everything; they're computing devices. 
So I don't know, I'm not an expert in this, but I assume that 
what I do with this and browse and do everything else emits 
more RF than what my old cell phone used to, which I just 
talked to people on. Is that true? No?
    Dr. Davis. I don't think we know. In fact, not necessarily, 
because so long as you're holding it out here you actually are 
going to get less exposure. This is what we are principally 
concerned about right now, and this is what we need the FDA and 
the FCC to look into very carefully, because the current 
standards are based on the standards for a 200-pound man with 
an 11-pound head talking for 6 minutes, to avoid heat. Now, 
that's not relevant to my 3-year-old granddaughter who likes to 
play with a cell phone. That's the problem we have. The current 
standards are set for a very large, big man and not for me or 
many other people in the world today. In Brazil, for example, 
there are 120 cell phone users and one-half of them are under 
age 20. Thank you. 120 million, thank you.
    Senator Harkin. The last thing I want to say, Dr. Naidenko, 
I don't have that list. Describe for me just a little bit the 
testing you went through. You tested 1,200 different phones?
    Dr. Naidenko. Thank you, Senator. Just to clarify, what we 
have done, we have conducted a science review of more than 200 
publications. These are peer-reviewed studies, Government 
advisories, and industry documents. That is in our cell phone 
radiation report.
    We have also compiled information on more than 1,200 
phones. We did not test the phones. We looked for that 
information in all publicly open sources. For many of the 
phones, we did succeed, with a lot of effort, to find their 
radiation output. For some phones we did not, and the reason 
for that is the Government does not require disclosure and 
consumers have to go through a really onerous and time-
consuming task to find what their model may emit.
    Senator Harkin. There's no Government agency? The FCC does 
not put out this kind of information about how much RF 
frequency is put out by the different phones? The FCC doesn't 
publish that?
    Dr. Naidenko. Thank you, Senator. That's a very important 
point. So the FCC does maintain a database of documents 
associated with every phone, every phone model that would be 
identified by FCC ID. But to locate that information, to locate 
that information, the cell phone user has to know their FCC ID. 
So the steps are buy the phone, find the FCC ID, go to FCC 
database. This is not available at the point of sale or in a 
readily available location.
    Senator Harkin. I want to see that list. I'll have my staff 
get it. I want to take a look at it. We ought to somehow get it 
published or somebody ought to at least know what the different 
ratings for something are.
    [The information follows:]

    http://www.fcc.gov/cgb/cellular.html

    Senator Harkin. Two last things. Senator Specter and I both 
have to leave. But Dr. Davis.
    Dr. Davis. You just need to know that the reported SAR, 
specific absorption rate, can be off by a factor of 2 to 4. 
There's no routine testing. There's no monitoring. There's no 
surveillance. The only time the FDA can act is if a hazard has 
been reported, as happened in the case of the LG flip phone in 
Canada last year, where a quarter of a million phones were 
recalled because they were found to be having a higher emission 
rate.
    So even though the SARs may be publicly available, and the 
EWG is to be commended for compiling them, we have no guarantee 
that your specific phone is at that SAR or one-half that or 
double it.
    Senator Harkin. Did you have something you wanted to add to 
that? I thought you were signaling me.
    Dr. Sadetzki. Just two minor points. The first is that in 
Israel it is obligatory by law to have the specific absorption 
rate on every one that is in the market.
    Senator Harkin. You're doing that now?
    Dr. Sadetzki. Yes, already for 4 years now.
    The second thing, I don't think that an inch would be 
enough. I would like to see the phones be further from the 
body. You asked how it will be done. This is a very legitimate 
question. I think that if the companies will need to do it, 
they have such clever engineers that they will find a solution. 
It's a technical problem. I see it as a minor problem. I think 
it can be done very easily with a few clever engineers getting 
together in a room for half an hour.
    Senator Harkin. Senator Specter, anything you want to add?
    Senator Specter. Well, I have a final comment. See what the 
Senate can do on a Monday afternoon if a couple of Senators are 
in town.
    Senator Harkin. Thank you. Thank you very much, all of you. 
I found this really very interesting and very challenging, and 
I can assure you we are going to do some follow-up on this. 
Thank you all very much.

                   STATEMENT RECEIVED FOR THE RECORD

    The subcommittee has received a statement from Robert N. 
Hoover of the National Cancer Institute, which will be included 
in the record.
    [The statement follows:]
Prepared Statement of Robert N. Hoover, MD, ScD, Director, Epidemiology 
    and Biostatistics Program, National Cancer Institute, National 
     Institutes of Health, Department of Health and Human Services
    My name is Dr. Robert N. Hoover. I am the Director of the 
Epidemiology and Biostatistics Program of the National Cancer Institute 
(NCI), part of the National Institutes of Health, an agency of the U.S. 
Department of Health and Human Services. As Director of this program, I 
have established ongoing programs of research in a variety of areas of 
cancer epidemiology, including the role of environmental, hormonal, and 
genetic factors in cancer etiology. I am also responsible for the 
oversight of the Radiation Epidemiology Branch, which conducts and 
follows research related to radio- frequency (RF) radiation and low-
frequency electromagnetic fields (EMF), as well as ionizing radiation. 
I have been asked by the subcommittee to prepare written testimony for 
the record for this hearing on cell phones and health.
    The following is a brief summary of the scientific evidence on the 
topic of cell phones and risk of brain cancer that I presented in 
September 2008 at a congressional hearing on the subject.
    As an epidemiologist my statement will focus on studies of risk in 
human populations. It is also important to note on the biologic side 
that the RF radiation from cell phones is billions of times lower than 
the energy of an X-ray. As such, its effect in the body appears to be 
insufficient to produce the genetic damage typically associated with 
developing cancer. To date, no alternative mechanism about how this 
exposure might result in cancer has been vetted adequately.
    In descriptive data from the large networks of population-based 
registries funded by NCI, there has been no meaningful increase in the 
incidence of brain or other nervous system cancers from 1987 through 
2005, a time period when cell phone use increased tenfold. In the 
earliest analytic epidemiologic studies, including one conducted by the 
NCI, self-reported frequency and patterns of cell phone use were 
compared between patients diagnosed with brain or nervous system tumors 
(known as cases) and patients (or controls) with other diseases--an 
investigation known as a case-control study. These studies found no 
convincing evidence of an association between cell phone use and 
glioma, a malignant tumor of the brain, or for meningioma or acoustic 
neuroma, two generally benign (noncancerous) tumors of the nervous 
system. However, these studies pointed out that future investigation 
would be needed to evaluate the potential effect of long-term use, as 
well as changing cell phone technology. As a result, a new generation 
of cell phone studies is emerging.
    Brain cancer is a very difficult disease to study well in an 
epidemiologic study. Much of the disease can be rapidly fatal, and the 
tumor, and its treatment can impair cognitive function. Cases may 
participate at a different rate than controls, and answers to questions 
may be altered for someone who knows they have a specific condition. 
Given all of this, it is not surprising that there is a fair amount of 
inconsistency within and between many of these studies. I will 
therefore focus on only the larger and better designed of these 
studies.
    Perhaps the most notable of these is a large collaborative project 
that includes individual studies from 13 different countries, 
collectively known as INTERPHONE. These case-control studies use a 
common study protocol to obtain more detailed information over a more 
recent time period about the frequency and patterns of cell phone use, 
as well as other measures of RF exposure in a wide variety of countries 
(Australia, Canada, Denmark, Finland, France, Germany, Israel, Italy, 
Japan, New Zealand, Norway, Sweden, and the United Kingdom). Analyses 
of data from individual centers and those pooled from some, but not 
all, of the individual countries have been published. These individual 
studies found no evidence of an overall increase in the risk of any 
type of brain tumors associated with the first 10 years of cell phone 
use. No increased risk has been found in relation to several measures 
of exposure, including time since first use, lifetime years of use, the 
number of calls, the hours of use, and the use of analog vs. digital 
phones.
    In some studies, a somewhat increased risk has been found for 
tumors diagnosed on the same side of the head used for speaking on cell 
phones among those with more than 10 years of cell phone use. However, 
these findings are based on small numbers (generally less than 5 
percent of cases under study) and are not consistently seen across all 
studies. We anticipate that when published, the combined INTERPHONE 
analysis, including all the centers in the original study, will provide 
a much larger number of long-term users; evaluation of different 
exposure metrics and latency; a formal assessment of the consistency in 
study-specific results; and more comprehensive and statistically stable 
risk estimates. This could bring considerable clarity to the current 
state of the science.
    In another noteworthy study, Danish investigators followed up cell 
phone subscribers over time and found no increased risk of brain tumors 
among the subscribers. This type of study--called a prospective study--
has the advantage of not having to rely on people's ability to remember 
their past cell phone use, which could be inaccurate or biased.
    As for all such investigations, the INTERPHONE study and the Danish 
prospective study have certain weaknesses as well. However, overall 
these studies probably provide the highest quality information on the 
effects of long-term use of cell phones to date.
    We know that cell phone use is increasing rapidly among children 
and adolescents. They are a potentially sensitive group because their 
small head size could result in higher RF exposure and the young brain 
may be more sensitive. To date, there are no published studies in the 
peer-reviewed literature regarding the risk of cancer and cell phone 
use in children. However, there are ongoing studies in Europe that will 
soon be able to provide information on the risk from cell phone use 
among children.
                                summary
    Thus far, brain cancer incidence trends in the United States are 
unrelated to patterns of cell phone use.
    Most analytic studies indicate no overall increased risk of brain 
tumors within first 10 years of use.
    There are no consistent findings of increased risk across many 
different ways of measuring increased dose.
    There are some isolated findings of increased risk in some dose and 
population subgroups, but larger studies and replication in different 
study designs are needed to sort out the roles of chance and bias from 
findings worth pursuing.
    Potential risks associated with childhood exposure have not been 
assessed.
    Insight into these last 2 points may come relatively soon from 
ongoing analyses of the overall INTERPHONE study, and from a European 
case-control study of childhood cancer.
    Thank you for the opportunity to present this information to you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. If there are any questions they will be 
submitted for response.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard C. Shelby
    Question. The FCC's Web site states that ``there is no scientific 
evidence that proves that wireless phone usage can lead to cancer or a 
variety of other problems, including headaches, dizziness or memory 
loss.'' Do you agree with the FCC?
    Answer. Although this statement is correct, it is also true that 
there is insufficient scientific evidence to prove that wireless phone 
usage does not lead to cancer or other problems including headaches, 
dizziness, or memory loss.
    Question. According to the FCC ``All wireless phones sold in the 
United States meet Government requirements that limit their RF energy 
to safe levels.'' Is it your view that wireless phones sold in the 
United States do not meet Government requirements?
    Answer. To the best of our knowledge, wireless phones sold in the 
United States are in compliance with regulations established by the 
FCC.
    Question. The FCC, FDA, ICNIRP, American Cancer Society, National 
Cancer Institute, and World Health Organization have found that there 
is no evidence that proves health problems with cell phone use. Are you 
aware of any scientific evidence that these organizations failed to 
consider?
    Answer. No.
    Question. The FDA's Web site states that ``the weight of scientific 
evidence has not linked cell phones with any health problems.'' \1\ Do 
you agree with the FDA?
---------------------------------------------------------------------------
    \1\ See http://www.fda.gov/Radiation-EmittingProducts/
RadiationEmittingProductsand
Procedures/HomeBusinessandEntertainment/CellPhones/ucm116282.htm
---------------------------------------------------------------------------
    Answer. The weight of scientific evidence has not linked cell 
phones with any health problems; however, as alluded to in response to 
the first question and in the testimony, there are many scientific 
areas of inquiry where better data would improve our confidence in this 
statement.

                         CONCLUSION OF HEARING

    Senator Harkin. The subcommittee will stand recessed.
    [Whereupon, at 3:51 p.m., Monday, September 14, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
